<html>
<title> - LEGISLATIVE HEARING ON H.R. 356, H.R. 832, H.R. 1994, H.R. 2133, H.R. 2275, H.R. 2344, H.R. 2360, H.R. 2361, AND A DRAFT BILL ENTITLED ``TO AMEND TITLE 38, UNITED STATES CODE, TO MAKE CERTAIN MODIFICATIONS AND IMPROVEMENTS IN THE TRANSFER OF UNUSED EDUCATIONAL ASSISTANCE BENEFITS UNDER THE POST-9/11 EDUCATIONAL ASSISTANCE PROGRAM OF THE DEPARTMENT OF VETERANS AFFAIRS, AND FOR OTHER PURPOSES''</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]










 LEGISLATIVE HEARING ON H.R. 356, H.R. 832, H.R. 1994, H.R. 2133, H.R. 
 2275, H.R. 2344, H.R. 2360, H.R. 2361, AND A DRAFT BILL ENTITLED ``TO 
 AMEND TITLE 38, UNITED STATES CODE, TO MAKE CERTAIN MODIFICATIONS AND 
IMPROVEMENTS IN THE TRANSFER OF UNUSED EDUCATIONAL ASSISTANCE BENEFITS 
UNDER THE POST-9/11 EDUCATIONAL ASSISTANCE PROGRAM OF THE DEPARTMENT OF 
               VETERANS AFFAIRS, AND FOR OTHER PURPOSES''

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS

                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                         TUESDAY, JUNE 2, 2015

                               __________

                           Serial No. 114-23

       Printed for the use of the Committee on Veterans' Affairs


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

98-640                         WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001

        Available via the World Wide Web: http://www.fdsys.gov
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

DOUG LAMBORN, Colorado               CORRINE BROWN, Florida, Ranking 
GUS M. BILIRAKIS, Florida, Vice-         Minority Member
    Chairman                         MARK TAKANO, California
DAVID P. ROE, Tennessee              JULIA BROWNLEY, California
DAN BENISHEK, Michigan               DINA TITUS, Nevada
TIM HUELSKAMP, Kansas                RAUL RUIZ, California
MIKE COFFMAN, Colorado               ANN M. KUSTER, New Hampshire
BRAD R. WENSTRUP, Ohio               BETO O'ROURKE, Texas
JACKIE WALORSKI, Indiana             KATHLEEN RICE, New York
RALPH ABRAHAM, Louisiana             TIMOTHY J. WALZ, Minnesota
LEE ZELDIN, New York                 JERRY McNERNEY, California
RYAN COSTELLO, Pennsylvania
AMATA RADEWAGEN, American Samoa
MIKE BOST, Illinois
                       Jon Towers, Staff Director
                Don Phillips, Democratic Staff Director

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                     BRAD WENSTRUP, Ohio, Chairman

LEE ZELDIN, New York                 MARK TAKANO, California, Ranking 
AMATA RADEWAGEN, American Samoa          Member
RYAN COSTELLO, Pennsylvania          DINA TITUS, Nevada
MIKE BOST, Illinois                  KATHLEEN RICE, New York
                                     JERRY McNERNEY, California

Pursuant to clause 2(e)(4) of rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


















                            C O N T E N T S

                              ----------                              

                         Tuesday, June 2, 2015

                                                                   Page

Legislative Hearing on H.R. 356, H.R. 832, H.R. 1994, H.R. 2133, 
  H.R. 2275, H.R. 2344, H.R. 2360, H.R. 2361, and A Draft Bill 
  Entitled ``To Amend Title 38, United States Code, to Make 
  Certain Modifications and Improvements in the Transfer of 
  Unused Educational Assistance Benefits Under the Post-9/11 
  Educational Assistance Program of the Department Of Veterans 
  Affairs, and for Other Purposes''..............................     1

                           OPENING STATEMENTS

Hon. Brad Wenstrup, Chairman.....................................     1
Hon. Mark Takano, Ranking Member.................................     3

                               WITNESSES

Hon. Paul Cook (CA-8)............................................     7
Hon. Sean Patrick Maloney (NY-18)................................     8
Hon. Bill Flores (TX-17).........................................    13
Mr. Paul R. Varela, Assistant National Legislative Director, DAV.    10
    Prepared Statement...........................................    41
Mr. Brendon Gehrke, Senior Legislative Associate, National 
  Legislative Service, Veterans of Foreign Wars of the United 
  States.........................................................    12
    Prepared Statement...........................................    47
Mr. Steve Gonzalez, Assistant Director, Veterans Employment and 
  Education Division, The American Legion........................    15
    Prepared Statement...........................................    54
Mr. David Borer, General Counsel, American Federation of 
  Government Employees, AFL-CIO..................................    16
    Prepared Statement...........................................    61
Mr. Christopher Neiweem, Legislative Associate, Iraq and 
  Afghanistan Veterans of America................................    18
    Prepared Statement...........................................    72
Mr. Rick Weidman, Executive Director, Government Affairs, VVA....    20
    Prepared Statement...........................................    78
Mr. Curtis L. Coy, Deputy Under Secretary for Economic 
  Opportunity, VBA, U.S. Department of Veterans Affairs..........    29
    Prepared Statement...........................................    88

    Accompanied by:

        Ms. Cathy Mitrano, Deputy Assistant Secretary for the 
            Office of Resource Management, Human Resources and 
            Administration, U.S. Department of Veterans Affairs
Ms. Teresa W. Gerton, Acting Assistant Secretary, Veterans' 
  Employment and Training Service, U.S. Department of Labor......    31
    Prepared Statement...........................................   107
Dr. Susan S. Kelly, Director Transition to Veterans Program 
  Office, Office of the Under Secretary of Defense for Personnel 
  and Readiness, U.S. Department of Defense......................    33
    Prepared Statement...........................................   116

                        STATEMENT FOR THE RECORD

Statement of Rep. Markwayne Mullin...............................   122
Veterans Education Success.......................................   123
U.S. Merit Systems Protection Board..............................   148
 
 LEGISLATIVE HEARING ON H.R. 356, H.R. 832, H.R. 1994, H.R. 2133, H.R. 
 2275, H.R. 2344, H.R. 2360, H.R. 2361, AND A DRAFT BILL ENTITLED ``TO 
 AMEND TITLE 38, UNITED STATES CODE, TO MAKE CERTAIN MODIFICATIONS AND 
IMPROVEMENTS IN THE TRANSFER OF UNUSED EDUCATIONAL ASSISTANCE BENEFITS 
UNDER THE POST-9/11 EDUCATIONAL ASSISTANCE PROGRAM OF THE DEPARTMENT OF 
               VETERANS AFFAIRS, AND FOR OTHER PURPOSES''

                              ----------                              


                         Tuesday, June 2, 2015

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                      Subcommittee on Economic Opportunity,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 2:09 p.m., in 
Room 334, Cannon House Office Building, Hon. Brad Wenstrup 
[chairman of the subcommittee] presiding.
    Present:  Representatives Wenstrup, Costello, Bost, Takano, 
Titus, Rice, and McNerney.
    Also Present: Representative Miller of Florida.

          OPENING STATEMENT OF CHAIRMAN BRAD WENSTRUP

    Dr. Wenstrup. Good afternoon, everyone. The subcommittee 
will come to order.
    Before we begin, I would like to ask unanimous consent that 
our colleague Chairman Miller be allowed to sit at the dais, to 
make opening statements, and ask questions.
    Hearing no objection, so ordered.
    I want to thank you all for joining us here today to 
discuss legislation pending before the subcommittee concerning 
education benefits, employment programs for our returning 
servicemembers and veterans, as well as accountability at the 
Department of Veterans Affairs.
    This afternoon, we have nine important pieces of 
legislation before us.
    I will focus my remarks on one of these bills, which I 
introduced earlier this year, H.R. 2344, the Veterans 
Vocational Rehabilitation and Employment Improvement Act of 
2015, as well as the draft bill that is on the agenda.
    VA's Vocational Rehab and Employment, VR&E, program exists 
to help disabled veterans become employment-ready or to assist 
the most severely disabled reach a point of maximum independent 
daily living. For years, we have heard from veterans and VSOs 
that the time it takes to complete a rehabilitation plan from 
the time of application to full rehabilitation is too long. And 
they have also said that the caseload for counselors is too 
high, which then doesn't allow the counselor to appropriately 
help each client.
    According to VA, on average, veterans spend anywhere 
between 5 to 10 years in the program--which, if that is how 
long it takes to rehabilitate some of these veterans, then that 
is understandable, but I fear that this extended length of time 
could also be due to an overworked system, a large caseload per 
counselor, and reliance on a primarily paper-based processing 
system.
    H.R. 2344 is aimed at ensuring veterans are receiving 
thorough and diligent assistance from their counselors and that 
they are provided the best resources possible to get them back 
to an employment-ready status or to a position where they are 
able to live independently on their own. Our disabled veterans, 
who have sacrificed so much, deserve to have a fulfilling life 
following their service.
    This bill would require that if a veteran is pursuing a 
course of education or training through VR&E that the program 
be approved for GI Bill benefits. Under current law, if a 
veteran is going to school through Voc Rehab, that school does 
not need to be approved by VA and the State approving agencies 
for GI Bill benefits.
    Programs will have a year following enactment to come into 
compliance with these rules. But I hope that this will increase 
oversight, and ensure that there aren't any so-called fly-by-
night schools taking advantage of our disabled veterans.
    My bill would also change the law so that if a veteran is 
doing any adaptations to their home through VR&E that those 
changes be made under the rules already existing for specially 
adapted housing grants and by their employees, as opposed to 
the veteran's Voc Rehab counselor overseeing the changes. This 
accomplishes two things: gets these counselors out of the 
business of making home construction decisions and instead 
allows them to focus on their primary goal, to rehab the 
veteran; and ensures that experts who deal with home 
adaptations on a daily basis are now the ones handling 
oversight of these projects so we can ensure veterans are 
getting the best outcomes in their homes.
    My bill would also encourage and authorize the Secretary to 
prioritize VR&E services based on need so that the VA can take 
into account things such as disability ratings, severity of 
employment handicaps, income, and other factors as the 
Department and its counselors are managing their ever-growing 
caseload. This provision is not to push any veterans out of the 
program but would be there to allow VA to prioritize the most 
disabled and employment-handicapped veterans as they seek VR&E 
services.
    Lastly, H.R. 2344 would require the Secretary to reduce 
redundancies and process all VR&E claims and payments in a 
paperless system, and it authorizes $10 million to upgrade 
their IT systems to make the change. VR&E has told us that they 
are currently in the process of updating their systems and that 
they have received authorization and funding for this upgrade. 
However, we have seen in the past that this money can easily be 
shifted elsewhere at any point. Shifting Voc Rehab to a 
paperless system will speed up the application process, 
increase efficiency, and assist in a quicker rehabilitation 
timeline for veterans in the program.
    I do believe VR&E is constantly improving, and I appreciate 
the work the VR&E service director, Jack Kammerer, and his 
employees do on a daily basis. And the purpose of this bill is 
to assist them in their critical mission for disabled veterans.
    Lastly, today, we will also be discussing a draft bill that 
deals with GI Bill transferability issues. The draft came from 
recommendations made by the Military Compensation and 
Retirement Modernization Commission earlier this year. The 
draft would change the service time requirement to be eligible 
to transfer GI Bill benefits to dependents to 10 years, with an 
additional 2-year commitment. Currently, the time requirement 
is 6 years, with an additional 4-year commitment.
    The draft bill would also reduce the monthly living stipend 
that transferees receive by half of its current rate. The 
commission recommended cutting the living stipend completely 
for dependents. However, I do think that there should be some 
amount of a stipend to be given to transferees, as that is in 
many cases also a benefit to their spouse or parent who served 
and transferred them this benefit.
    If we are to move this bill forward, I would commit to 
using the savings from these changes to improve GI Bill 
benefits or other programs for veterans, which I think we can 
all agree is important.
    With that being said, I am eager to discuss each of the 
nine pieces of legislation before us today. And I am grateful 
to my colleagues who have introduced these bills and to our 
witnesses for being here to discuss them with us, and I look 
forward to a productive and meaningful discussion.
    I will now yield to my colleague, Ranking Member Takano for 
any opening statement he may have.

        OPENING STATEMENT OF RANKING MEMBER MARK TAKANO

    Mr. Takano. Thank you, Mr. Chairman.
    As we gather today, I just want to take a moment to thank 
you, Chairman Wenstrup, for conducting the Economic Opportunity 
Subcommittee in such a productive, positive, and bipartisan 
manner in this Congress. You have led the EO Subcommittee so 
that it has become the most productive of the four House 
Veterans' Affairs Committee subcommittees thus far in the 114th 
Congress. Under your leadership, we have conducted a 
legislative hearing and a markup under regular order, and we 
have forwarded 11 bills favorably to the full committee with 
unanimous bipartisan support. Five of our bills have actually 
passed the House.
    I particularly want to also congratulate my colleague, who 
is not here, Miss Rice, on seeing her very first piece of 
legislation pass the House, H.R. 1382, the BRAVE Act.
    So, on this high note, today we begin our second round of 
legislative hearings with nine bills before us. I have 
introduced two of these bills: H.R. 2360, the Career-Ready 
Student Veterans Act, and H.R. 2361, the Work-Study for Student 
Veterans Act. I am very grateful that both enjoy bipartisan 
support.
    The first, H.R. 2360, the Career-Ready Student Veterans 
Act, ensures that career education programs designed to prepare 
our student veterans for entry into the workforce are actually 
doing so. The bill would mandate that programs meet certain 
requirements in order to be eligible to receive GI Bill 
benefits.
    Currently, education programs can be eligible for GI Bill 
benefits even if they lack proper accreditation or do not meet 
State licensure or certification requirements. This means that 
veterans can use their hard-earned education benefits to attend 
programs that do not prepare them for a career in their field 
of study. H.R. 2360 would change this policy so that student 
veterans could only use their GI Bill benefits at education 
programs that meet proper accreditation, licensure, and 
certification requirements.
    Now, the Department of Defense already has this policy in 
place to protect servicemembers using tuition assistance 
benefits. It only makes sense that Congress should protect 
student veterans in the same way.
    I am very proud to say that H.R. 2360 enjoys clear 
bipartisan support, and I urge my colleagues to consider 
supporting the bill as we listen to the testimony today.
    My second bill, H.R. 2361, the Work-Study for Student 
Veterans Act, reinstates certain Department of Veterans Affairs 
student work-study activities that expired on June 30, 2013.
    Through the VA's Student Work-Study Allowance Program, 
qualifying student veterans in college degree programs or 
vocational or professional programs are paid to work in a 
variety of capacities on campus at VA facilities or at other 
veterans-centered organizations to assist fellow veterans.
    The work-study program achieves two important goals: 
offering student veterans a way to earn a little extra money, 
and providing transitioning veterans with the guidance and 
assistance of fellow veterans who know firsthand what the 
transition is like.
    Unfortunately, the 113th Congress in the Senate failed to 
act on H.R. 1453, the Work-Study for Student Veterans Act, 
which passed the House and would have extended the 
authorization for several qualifying VA work-study activities.
    I hope my colleagues will join me in support of this bill 
as we go forward. I hope we might hear from the VA today that 
they would like to see this program made permanent.
    Now, there is a lot on the agenda, and I don't want to take 
up too much time here, but I do appreciate all of our witnesses 
for being here today, and I look forward to their testimony.
    Thank you, Mr. Chairman. I yield back.
    Dr. Wenstrup. Thank you, Mr. Takano. I want to thank you 
for your kind words, and I appreciate the opportunity of 
working together with you on this subcommittee.
    I will now yield to Chairman Miller of the full committee 
to discuss his bills, H.R. 1994 and H.R. 2275.
    Chairman Miller, you now recognized.
    Mr. Miller. Thank you very much, Chairman Wenstrup, Ranking 
Member Takano. I appreciate the opportunity not only to sit at 
the dais today but also to present a couple of pieces of 
legislation for your consideration today. I also appreciate the 
fact that you are allowing me to speak before Colonel Cook.
    Sir.
    I want to focus on the two bills that you talked about, 
H.R. 1994 and the VA Accountability Act of 2015. It provides 
the Secretary of the Department of Veterans Affairs with yet 
another tool to remove any VA employee for poor performance or 
misconduct. And the provision is simply an extension of the 
same authority that we passed last summer in the Choice Act to 
remove senior executives.
    To prevent retaliation, the bill would protect 
whistleblowers by not allowing the Secretary to use this 
authority on employees who have filed a complaint with the 
Office of Special Counsel. This provision is critically 
important as we continue to uncover many instances of 
whistleblower retaliation, and the last thing I want is for 
this new provision that is meant to hold bad employees 
accountable to instead harm legitimate whistleblowers.
    Now, additionally, this bill would require that all 
probationary periods for new VA employees last for at least 18 
months instead of the current period of 1 year. It would also 
give the Secretary the authority to extend this probationary 
period as he or she would see fit. The provision was at the 
suggestion from Partnership for Public Service, a good 
government think tank, and will give VA supervisors more 
flexibility to determine new employees' performance before they 
actually become a permanent employee of the Department. I would 
also note that most medical professionals in VA are already 
required to complete a 2-year probationary period.
    Finally, the bill would require that the Government 
Accountability Office would conduct a study of VA time, space, 
and resources devoted to labor union activities.
    Some have said that this bill is nothing but a partisan 
attack against hardworking VA employees. This could be no 
further from that particular truth. As I have stated from day 
one, I believe that 99 percent of VA's more than 300,000 
employees are dedicated and hardworking and are not part of the 
problem that exists at VA today.
    The true problem is that, more than a year after enduring 
the biggest scandal in VA history, in which 110 VA facilities 
allegedly maintained secret lists to hide wait times, the 
Department has fired only one for wait-time manipulation--just 
one person. Even worse, rather than disciplining bad employees, 
VA often just transfers them to other VA facilities or puts 
them on paid administrative leave for months on end as they 
receive their full salary and waste taxpayer dollars.
    Whether it is Philadelphia, Reno, Nashville, Phoenix, or a 
plethora of other facilities, VA's tradition of transferring 
problem workers, putting them on paid leave, or simply allowing 
them to go virtually unpunished continues because current civil 
service rules make it nearly impossible to hold bad employees 
accountable. One of the reasons I know this is because high-
ranking officials at VA, people who work directly for the 
Secretary, have told me, in fact, that this is the case.
    In a hearing last month, Deputy Secretary Gibson also said 
it was too hard to fire employees at VA. In one instance, the 
Office of Inspector General completed a well-documented report 
proving one employee's blatant disregard for government 
regulations and rules. And, in this report, the IG recommended 
that the employee pay back tens of thousands of dollars in 
wasted time, wages, and travel fees which the employee had 
basically stolen during his time as a VA employee. Furthermore, 
the IG recommended that VA take administrative action against 
the employee.
    So what did VA do with this report and the recommendations 
that were contained in it? Well, they reached a settlement 
agreement with the employee which only required the individual 
to pay back one-third of the amount of money the IG said the 
employee owed, allowed the employee to resign as opposed to 
being fired from VA, expunged all documentation from his 
official record regarding his misconduct during his time as a 
VA employee, and required VA to pay the employee several 
thousands of dollars to cover his attorney's fees he incurred 
during VA's investigation and their settlement.
    We have asked the Department whether this employee has 
indeed paid back the amount he owed, and, although we are still 
awaiting a response, I have a sneaking suspicion that he has 
yet to pay back a single dime that was owed.
    I am sure many people would be shocked to learn about the 
incident I just described and will wonder why VA just didn't do 
the right thing and fire this individual as well as collect the 
money that he owed the government. Well, the answer to that 
question lies in this chart that is going to be placed up on 
the screens that was part of a GAO report on the civil service 
from earlier this year. And you also have it in your binder.
    Mr. Miller. They found that it takes, on average, 6 months 
to a year and sometimes significantly longer to fire somebody 
at the VA. Once they are actually removed, the MSPB has cited 
that in 2013 it took an average of 243 days from start to 
finish to adjudicate an appeal.
    The process illustrated by this chart is exactly the type 
of thing that makes the average citizen lose faith in their 
government and causes quality healthcare professionals and 
managers to think twice when considering whether or not they 
would work at VA. After all, why would anyone want to work for 
an organization where corrupt behavior that harms veterans and 
wastes taxpayer money is not only tolerated but often goes 
virtually unpunished because there is too much paperwork?
    Is this what our citizens want? Is this what our veterans 
deserve? I don't think so, and neither do the more than 40 
bipartisan cosponsors of my bill or the leading VSOs that 
support it. So it is time to bring commonsense measures to VA 
and give the Secretary the tools that he or she will need in 
the future to hold VA employees accountable.
    Now, my second bill on the agenda is H.R. 2275, the Jobs 
for Veterans Act of 2015. This bill would realign all education 
and training programs for veterans into the new Economic 
Opportunity and Transition Administration at the VA. This means 
that VA's Education Service, Loan Guarantee Service, Vocational 
Rehabilitation and Employment Service, the Center for Veterans 
Enterprise, and VA's TAP program would transfer over from the 
Veterans Benefit Administration to this new administration.
    The bill would also transfer the Veterans Employment and 
Training Service from the Department of Labor to this new 
administration within VA. The bill would require that VA and 
Department of Labor enter into a memorandum of understanding to 
ensure a smooth transition of these programs and employees. And 
it would require that VA create this new administration using 
already-existing resources.
    I understand this is a major change in the way the Federal 
Government oversees job training and programs for training, 
but, as the old saying goes, the definition of ``insanity'' is 
doing the same thing over and over again but expecting 
different results. Decades of GAO reports and other reports 
have shown that the programs that Department of Labor's VETS 
administers have continually been ignored by the Department of 
Labor regardless of the political party in the White House.
    It is time to bring all employment and training programs 
under one roof, as this will eliminate duplication, it will 
streamline processes, and, most importantly, it will improve 
veteran opportunities for future employment.
    And, Mr. Chairman, I appreciate the opportunity again, and 
I yield back my time.
    Dr. Wenstrup. Well, thank you, Chairman Miller. And I 
appreciate your deep dive into these issues. I think it is 
unfair not only to our veterans but to the thousands of good VA 
employees that there they are, devoted to the veteran, and we 
have those that take advantage of working in the system. I 
appreciate your testimony.
    It is an honor today to be joined by our colleagues Colonel 
Paul Cook of California and Mr. Sean Maloney of New York at the 
witness table today. And I understand Mr. Flores will be here 
shortly.
    Mr. Flores and Colonel Cook used to serve on this 
committee, and Mr. Flores used to be the chairman of this 
subcommittee last Congress. So I am sure it is a little bit of 
a different view for him when he gets here and sits at the 
witness table.
    But I thank all three of you for being here.
    Colonel Cook, you are now recognized.

 STATEMENT OF THE HON. PAUL COOK, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Cook. Thank you, Mr. Chairman.
    It was no problem yielding to Chairman Miller. It was a 
little bit disconcerting to see that when he was giving the 
definition of ``insanity'' he looked over at me. I don't want 
to read into it.
    Anyway, my bill, H.R. 832, ensures that veterans are 
receiving effective and successful employment training 
services.
    This bipartisan bill authorizes an independent organization 
to collect and analyze data on the effectiveness of the 
Department of Labor's Veterans' Employment Training Service. 
The study will focus on veterans who have received intensive 
services from two programs under VETS: the Disabled Veterans 
Outreach Program and the Local Veterans Employment 
Representatives Program.
    Disabled Veterans Outreach Program specialists provide job 
training for veterans, with special emphasis on veterans with 
service-connected disabilities. These specialists help veterans 
to be competitive in the labor market. They focus on veterans 
who are economically or educationally disadvantaged, including 
homeless veterans and veterans with barriers to employment. 
Local veterans employment representatives conduct outreach to 
employers and focus on increasing and promoting the hiring of 
veterans.
    The study will track the employment status of veterans who 
have received these services, determine if the program 
contributed toward their employment, monitor the employment 
retention rate, and determine if the services provided helped 
them increase their average earnings. A report on the findings 
will be presented to the Committee on Veterans Affairs in the 
House and Senate every year for the next 5 years.
    Congress owes it to our veterans to provide them with the 
best employment services possible. Simply authorizing these 
programs isn't enough; we have to follow up and ensure they are 
working as intended. We saw at the VA what happens when the 
bureaucracy isn't subject to vigorous oversight. If we are 
going to authorize these programs to boost veteran employment, 
Congress has the duty to ensure that they are working.
    You know, we have talked about this over and over again. 
Before I finish up, I do want to thank Congressman Costello and 
Congresswoman Titus for cosponsoring this bill.
    The bottom line is that, with the military and veterans, we 
have a responsibility to take care of the troops. If a program 
is there to provide a certain function or mission, we have to 
make sure it is working; if not, get rid of it or change it. We 
owe that much to our veterans.
    Thank you very much for letting me present this bill.
    Dr. Wenstrup. Well, thank you, Colonel Cook.
    Mr. Maloney, you are now recognized.

STATEMENT OF THE HON. SEAN PATRICK MALONEY, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mr. Maloney. Thank you, Mr. Chairman. It is an honor to be 
here with all of you and with my colleague Colonel Cook. He and 
I had the opportunity to lay a wreath at the Tomb of the 
Unknown Soldier just last week. I stood and watched while he 
performed that difficult duty in the rain.
    Mr. Cook. I didn't drop it.
    Mr. Maloney. It was an honor to be there with him, and it 
is an honor to be here with all of you.
    Mr. Chairman, Ranking Member Takano, members of the 
committee, thank you for holding this hearing and allowing me 
to testify in support of my bill, H.R. 356, the Wounded Warrior 
Employment Improvement Act. I know the committee has a lot of 
work to do, so I will be brief.
    First off, I would like to thank Ranking Member Takano and 
Congressman Markwayne Mullin, who joined me as original 
cosponsors of this bill and worked to help move this 
legislation forward. I would also like to acknowledge the 
Wounded Warrior Project, which played a key role in crafting 
the legislation. And thank you to the staff of the Veterans' 
Affairs Committee for working with my office on this, as well.
    My dad, Jim Maloney, was a World War II-era veteran who was 
fairly injured in the line of duty in 1946 aboard the USS 
Manchester. The guy next to him was killed. And my dad spent 
months in a naval hospital, about a year, trying to get back to 
his life. You know, his high school sweetheart, my mom, wrote 
him a letter every day that he was in that hospital, and he 
credits her and those letters with leading him back to a 
productive life.
    But the truth is, when he finally got out of that hospital, 
his government was also there for him. It invested in him. He 
was able to go to school. He was able to get a job. He was able 
to start a family, have six kids, send us all to school, live 
his dream. And that, after all, is what it is all about.
    But today too many members of the military return home only 
to struggle to reenter the workforce or to enter it for the 
first time. This problem is particularly prevalent among the 
roughly 3 million veterans who, like my dad, came home with a 
service-related disability. Our veterans deserve to know that 
when they come home their country will not forget their 
service. I know we all agree about that, and we have an 
obligation to safeguard that promise.
    The VA's VR&E program is the critical tool for helping 
combat-disabled veterans find their place in the workforce, 
but, unfortunately, as a 2014 GAO report found, the program is 
badly in need of reform. The report highlighted problems with 
staff allocation and training, overwhelmed caseworkers, and 
flawed performance metrics that make it difficult to accurately 
gauge the program's effectiveness.
    So my legislation is straightforward and simple. It would 
require the VA to develop a specific action plan to fix the 
problems identified in this GAO report. This bill would help 
reduce caseloads, increase enrollment in education programs, 
and implement a new training program to ensure that the staff 
are able to meet the needs of today's veterans, particularly 
those with traumatic brain injury and PTSD.
    I am proud that this bill has the support of AFGE, the 
IAVA, the Wounded Warrior Project, Vets First, and the American 
Legion.
    I know that the VA has already taken steps to address some 
of these issues, and I appreciate that work, but, as the GAO 
report acknowledged, quote, ``weaknesses remain.'' We cannot 
stop improving this program until it works and until it works 
well. We all know that, when given the opportunity, American 
veterans thrive in the workforce. They just need a government 
that is as good as they are and that is committed to investing 
in their success.
    Thank you, and I look forward to working with all of you in 
support of this important goal. And I appreciate the 
opportunity to appear before you today.
    Dr. Wenstrup. Thank you, Mr. Maloney.
    And I thank you both for bringing forth these bills and 
speaking on them at today's subcommittee hearing.
    Unless there are any questions for our colleagues, you are 
now excused.
    I now invite our second panel to the table: Mr. Paul 
Varela, the assistant national legislative director for 
Disabled American Veterans; Mr. Brendon Gehrke, senior 
legislative associate for the National Legislative Service at 
the Veterans of Foreign Wars of the United States; Mr. Steve 
Gonzalez, assistant director for the Veterans Employment and 
Education Division at the American Legion; Mr. David Borer, 
general counsel for the American Federation of Government 
Employees and AFL-CIO; Mr. Christopher Neiweem, legislative 
associate at the Iraq and Afghanistan Veterans of America; and, 
finally, Mr. Rick Weidman, executive director for government 
affairs at the Vietnam Veterans of America.
    I thank you all for being here, your service to our Nation 
in uniform, and for your hard work and advocacy for veterans.
    Mr. Varela, we will begin with you, and you are now 
recognized for 5 minutes.

                  STATEMENT OF PAUL R. VARELA

    Mr. Varela. Good afternoon, Chairman Wenstrup, Ranking 
Member Takano, and members of the subcommittee. DAV appreciates 
the opportunity afforded to us today to testify at today's 
legislative hearing.
    For the following bills--H.R. 832, 2360, 2361--and the 
draft bill regarding the transfer of unused educational 
assistance benefits under the Post-9/11 GI Bill, DAV has no 
resolution from our members pertaining to the issues identified 
within these bills but would not oppose passage of the 
legislation. For the remaining bills, we would like offer our 
views and, in some cases, our recommendations.
    H.R. 356 contains several provisions, one of which would 
require the Secretary of VA to perform an analysis and make 
recommendations in a report to Congress to encourage Post-9/11 
GI Bill-eligible veterans to use Vocational Rehabilitation and 
Employment, VR&E, benefits and services. We have no resolution 
from our membership regarding this issue.
    DAV would not oppose the bill's passage; however, 
encouraging veterans with eligibility under Post-9/11 GI Bill 
to instead use VR&E benefits and services will require 
additional resources in VR&E to meet increased demand. VR&E's 
current counselor-to-client ratio remains high, which 
contributes directly to delays in delivering timely and 
effective services.
    DAV and our independent budget partners have recommended a 
more practical counselor-to-client ratio of 1 to 125. To 
achieve this ratio in fiscal year 2016, VR&E would require an 
additional 382 full-time-employee equivalents, FTEE, 277 
dedicated as VR&E counselors, and the remaining 105 employees 
dedicated towards support services, bringing VR&E's total FTE 
strength to 1,824.
    DAV calls on Congress to increase staffing levels within 
VA's VR&E program in accordance with our National Resolution 
No. 052. If Congress intends to encourage increased use of VR&E 
by Post-9/11 GI Bill-eligible veterans, then adequate resources 
will be essential to strengthen this critical program to meet 
the demand.
    H.R. 1994 would provide the VA Secretary with the authority 
to remove or demote employees based on performance or 
misconduct. We have no resolution from our membership on this 
topic and take no position on this bill.
    H.R. 2133 would provide additional training options under 
the Transition Assistance Program, now TAP GPS, to members of 
the Armed Forces separating from Active Duty. The Secretary of 
Defense and Homeland Security would be required to provide 
additional training opportunities to these servicemembers. In 
accordance with DAV Resolution No. 053, we support this bill. 
Expanding training opportunities to these separating 
servicemembers will only help to better their chances of 
success when competing within the civilian job market.
    H.R. 2275 would establish within VA a new Veterans Economic 
Opportunity and Transition Administration. It would improve 
employment and educational opportunities for veterans by 
consolidating various VA programs now managed by the Veterans 
Benefits Administration and also transfer veteran-focused 
programs from Department of Labor to VA.
    Mr. Chairman, DAV previously testified before this 
subcommittee on February 12, 2015, regarding this very issue 
and encouraged Congress to introduce and enact this proposal. 
We are pleased to support this bill, consistent with DAV 
Resolution No. 227.
    Consolidation has the potential to streamline and enhance 
economic and employment prospects for wounded, injured, and ill 
wartime veterans and provide them with meaningful and gainful 
opportunities. Ensuring these veterans and their families have 
optimal, seamless access to employment and economic prospects 
and services is a central concern of our organization. In the 
wake of war, we believe that we reflect the concerns of the 
entire Nation. DAV welcomes the opportunity to work with this 
subcommittee to see this justified reform enacted into law, and 
DAV thanks the sponsor for introducing this bill.
    H.R. 2344 seeks to make improvements within VA's VR&E 
program that would affect the approval of courses pursued under 
VR&E, eligibility for special adapted housing, and new 
authority to prioritize VR&E services based on need for program 
participants, and a $10 million authorization for related 
information technology enhancements.
    DAV has no resolution from our membership on the particular 
issues identified within this bill but would not oppose passage 
of the legislation. However, we would recommend adding three 
additional reporting requirements: first, a report that 
captures information pertaining to the disapproval of courses 
under VR&E that fail to meet the approval standards set forth 
within the Montgomery GI Bill and Post-9/11 GI Bill programs; 
second, a report that collects information relative to the 
number of waivers seeking course approval and the disposition 
of any waiver requests; and, third, a report capturing 
information regarding need-based prioritizations.
    Chairman Wenstrup, Ranking Member Takano, and members of 
the subcommittee, this concludes my testimony, and I am 
prepared to answer any questions you may have.

    [The prepared statement of Paul R. Varela appears in the 
Appendix]

    Dr. Wenstrup. Well, thank you very much.
    Mr. Gehrke, you are now recognized for 5 minutes.

                  STATEMENT OF BRENDON GEHRKE

    Mr. Gehrke. Chairman Wenstrup, Ranking Member Takano, and 
members of the subcommittee, thank you for allowing me to 
present the VFW views on the pending legislation.
    The VFW supports the intent of H.R. 356; however, we 
suggest that the Congress take a different approach. We share 
the concern that VR&E may not be able to serve the veterans who 
need it most if Congress does not make changes to the current 
system. However, we are doubtful that a VA action plan will 
remedy VR&E's access issues and may unnecessarily burden an 
already overworked agency. Instead, Congress should fund the 
longitudinal study that it authorized in the Veterans Benefits 
Improvement Act of 2008 so that VA can identify problems and 
modify VR&E to better serve veterans.
    To better understand the veteran hiring experience, the VFW 
supports H.R. 832, and we urge the committee to appropriately 
fund the study.
    The VFW strongly supports H.R. 1994, Chairman Miller's VA 
Accountability Act of 2015. We believe that VA and Congress 
must collaborate to identify and fix what is broken within VA, 
must hold employees accountable, and must do everything 
possible to restore veterans' faith in their VA.
    In addition, we urge the committee to take a 
multidimensional approach to tackling issues with VA's human 
resource practices. The VFW is concerned with whistleblower 
retaliation, VA's hiring process, and the sinking morale of VA 
employees. A Federal survey shows that less than 50 percent of 
VA employees feel that arbitrary action, personal favoritism, 
and coercion for partisan political purposes is not tolerated. 
Also, VA employee satisfaction scores fell in 76 out of 84 
measures within the last year.
    With low morale comes a high price tag. The Gallup 
organization estimates that millions of disengaged employees 
cost the American economy as much as $350 billion per year in 
lost revenue as a result of low employee morale. VA can't 
afford to lose time and money from poor hiring practices or low 
employee morale. We fear that VA's workforce productivity could 
further decline due to staffing shortages and low employee 
morale if VA cannot attract and keep high-achieving employees.
    We believe that, in order to help foster a culture of 
accountability, Congress should include language in the bill to 
prevent whistleblower retaliation and provide VA with 
additional resources to recruit, train, and retain the best 
employees.
    The VFW supports H.R. 2275. The VFW supports this bill 
because it can protect veterans job programs from 
sequestration, better ensure that veterans job programs receive 
proper congressional oversight, and improve veterans' access to 
job programs by streamlining government services. Also, 
Congress must ensure that Veterans' Employment Training 
Services is always properly funded no matter what agency has 
authorization over the program--or authority over the program.
    The VFW supports H.R. 2344, except section 4. Section 4 
requires VA to prioritize certain disabled veterans over other 
disabled veterans for access to VR&E programs. The VFW believes 
that no veteran should have to wait or be denied the VA 
services that they have earned.
    This provision calls for VA to manage to a budget instead 
of the need. As we have recently witnessed, this tactic leads 
to veterans being denied care and services they need to 
maintain a healthy life and provide for their families. We 
cannot allow this to happen again, and Congress must fully fund 
all of VA and expand VR&E resources so they can better provide 
employment services to disabled veterans.
    The VFW supports H.R. 2360 to ensure schools who are 
eligible for the GI Bill are offering programs that award 
student veterans with proper programmatic accreditation that 
meets veterans' and employers' expectations.
    Unfortunately, some schools offer degrees that do not 
provide graduates the needed credentials to qualify for the 
professions within their field of study. Worse yet, when asked, 
many of these schools offer prospective students unclear 
information about programmatic accreditation and their 
requirements for professional certification.
    This is not a wise use of taxpayer dollars, it allows 
students to use money, whether it comes from military tuition 
assistance or the GI Bill, for degrees that will not result in 
more veterans being employed.
    The VFW supports H.R. 2361.
    Regarding the draft bill language, the VFW played an 
integral role in passing the Post-9/11 GI Bill, and we have a 
vested interest in ensuring the long-term viability of veterans 
education programs. The GI Bill's primary use should be to help 
veterans reintegrate into civilian life by providing the 
education and skills necessary to gain meaningful employment.
    And the retention aspect should never provide a greater 
benefit to dependents than it does to wartime veterans. 
Therefore, any reduction of certain elements in the GI Bill 
must include increases for those who need it most. The 
committee should concentrate on closing gaps in the Fry 
Scholarship and improving the benefit to Guardsmen and 
Reservists who deployed overseas in defense of our country, 
especially those who are recovering from wounds or injuries 
incurred on Active Duty.
    This concludes my remarks, and I look forward to answering 
any questions the committee may have.

    [The prepared statement of Brendon Gehrke appears in the 
Appendix]

    Dr. Wenstrup. Well, thank you, Mr. Gehrke.
    And before we go to Mr. Gonzalez, I would like to pause for 
a second to recognize Mr. Flores of Texas and give him an 
opportunity to share his remarks on his bill, H.R. 2133.

STATEMENT OF THE HON. BILL FLORES, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF TEXAS

    Mr. Flores. Okay. Thank you, Chairman Wenstrup and Ranking 
Member Takano. It is great to be back in this esteemed 
committee today.
    I am here today to testify in support of my bill, H.R. 
2133, the Servicemembers' Choice in Transition Act. I 
introduced this legislation during the 113th Congress as the 
former chair of this subcommittee and was pleased to see it 
pass through the subcommittee last Congress.
    The Servicemembers' Choice in Transition Act is meant to 
enhance the Transition Assistance Program, or TAP, that was 
required for all separating servicemembers in the VOW to Hire 
Heroes Act of 2011. TAP is a joint DoD, DoL, and VA program 
that provide training to servicemembers about veterans 
benefits, job search skills, pre-separation counseling, resume 
writing, interview preparation, and other transition training.
    The bill would modify TAP to enable those leaving military 
service to attend the additional 2-day in-depth informational 
tracks that are currently optional. These three tracks cover 
career technical training, entrepreneurship opportunities, and 
access to higher education.
    As I said before, the VOW to Hire Heroes Act required 
mandatory attendance at TAP for all but a few servicemembers. 
However, it is currently not mandatory for base commanders to 
allow servicemembers to attend these three tracks. 
Unfortunately, by not requiring these tracks, DoD's model for 
TAP falls short in providing sufficiently detailed information 
for transitioning servicemembers and preparing them for 
civilian life. The Post-9/11 GI Bill, for example, is a very 
generous benefit and could be worth well over $250,000 to a 
veteran over 4 years. So it is important that the veteran is 
fully briefed on what that benefit can provide in the long run.
    Furthermore, if a veteran was planning to go to college and 
use their Post-9/11 benefits, the education track would help 
them decide whether they are even ready for postsecondary 
education and/or what school best fits their needs. If they are 
not ready for school, then the education track gives a veteran 
an opportunity to be briefed on how to get ready, on how to set 
their education or training goals, on how to find out what 
schools would best meet their education or training goal, and 
on how to complete the admissions process, and, finally, how to 
finance their education or their training.
    The importance of educating transitioning servicemembers 
before they use their GI Bill benefits was further highlighted 
and recommended to be mandatory for those who want to use their 
benefits in the recent 2015 Military Compensation and 
Retirement Modernization Commission report.
    I believe that H.R. 2133, in making the optional tracks 
mandatory, would play an instrumental role in filling the gap 
as servicemembers transition from Active Duty to civilian life, 
while also giving the military services flexibility to meet 
those requirements. We owe it to our veterans to ensure that 
their transition into the workforce is as smooth as possible. 
By modifying the required contents of TAP, we are offering our 
servicemembers alternative training paths to better suit their 
intentions and to provide them with the tools for successful 
transition into civilian life.
    Again, I want to thank the subcommittee for their time and 
support today. I also want to thank all the veterans service 
organizations that have shown support for this legislation in 
the past and today. And I urge passage of 2133.
    And I yield back.
    Dr. Wenstrup. Well, thank you, Mr. Flores.
    We will now continue on with the panel.
    And, Mr. Gonzalez, you are recognized for 5 minutes.

                  STATEMENT OF STEVE GONZALEZ

    Mr. Gonzalez. Thank you, Mr. Chairman.
    Good afternoon, Mr. Chairman and Ranking Member Takano, 
members of the subcommittee. Thank you for this opportunity to 
allow me to present the views of the American Legion, America's 
largest wartime veterans service organization, on several 
pieces of legislation being considered by the committee today.
    Due to allotted time available, I will concentrate on three 
of the bills. First, I will address H.R. 832, the Veterans 
Employment and Training Service Longitudinal Study Act of 2015.
    The American Legion would support a longitudinal study of 
the job counseling, training, and employment placement 
services, JVSG services, only if the bill were altered to 
direct the Secretary of Veterans Affairs to contract for this 
study as opposed to the Secretary of Labor.
    In 2012, a similar proposal was made to study the 
Department of Labor employment services. At this time, Chairman 
Miller has stated more study was not needed and, quote, ``We 
have already study after study over the years that say the 
program does not work.'' The American Legion agrees with the 
chairman's assessment. A longitudinal assessment of the 
Department of Labor VETS performance can already be read in the 
16 GAO and OIG reports dating back to 1997. All reports reveal 
negative findings.
    Therefore, such a detailed study would be better 
implemented after JVSG and the HVRP are moved to VA and set 
under the purview of the Secretary of Veterans Affairs. The 
American Legion supports this legislation.
    Next, I will address H.R. 2275, Jobs for Veterans Act of 
2015.
    The American Legion has long supported the Department of 
Labor Veterans Employment and Training Services, or better 
known as DOL-VETS. Unfortunately, the good faith of the 
veterans in this program have been rewarded with ongoing 
program management problems, including a lack of 
accountability.
    Department of Labor's budget request makes it painfully 
clear that the agency with the monumental task of helping 
Americans to be gainfully employed is unable to give the proper 
attention to veterans employment issues that our constituents 
deserve.
    At this juncture, the American Legion believes that the 
best way to improve DOL-VETS is to transfer the Jobs for 
Veterans State Grants and the Homeless Veterans Reintegration 
Portion of the program to VA. Though there is a place for a 
veterans office within Department of Labor, the American Legion 
believes these two programs would be better served if they were 
located in a new administration consolidated under the VA.
    Lastly, I will address H.R. 2360, the Career-Ready Student 
Veterans Act.
    Institution accreditation is typically done by regional and 
national accreditation bodies. Programmatic accreditation is 
for specific programs offered within an educational 
institution. Programs are typically accredited by specialized 
organizations. By not having the program accredited by the 
appropriate body, the individual does not make effective use of 
the GI Bill benefit if an individual uses the benefit to 
prepare for a license or certification occupation but the 
program does not meet the licensure requirements.
    The American Legion will urge the Congress apply this 
requirement equally to all institutions of higher learning as 
well as nonaccredited schools. We also urge Congress also 
include all deemed approved degree programs and assure that the 
State approving agencies can have adequate oversight of all 
institutions of higher learning if we are to implement this 
piece of legislation.
    The American Legion does have two questions or concerns.
    One, does the proposed legislation only cover meeting the 
licensure or certification standards in the respective State 
where the institution is located? If that is the case, it is 
troubling for those veterans who do not plan to practice in the 
State where the school is located or individuals taking 
distance learning courses. The legislation should make clear 
who would determine the requirements for these programs or 
approval in all the States.
    And then the last, number two: If the intent of the 
Congress is to add to the existing workload of the State 
approving agencies, which are already spread thin, then the 
Congress should give great consideration and reevaluation of 
the existing budget of the SAAs, to include increasing such 
budgets to ensure that the SAAs are able to meet their current 
workload as well as the possibility of this new add-on.
    Thank you, Mr. Chairman, Ranking Member Takano.
    And I will yield my time, Mr. Chairman.

    [The prepared statement of Steve Gonzalez appears in the 
Appendix]

    Dr. Wenstrup. Thank you very much.
    Mr. Borer, you are now recognized for 5 minutes.

                    STATEMENT OF DAVID BORER

    Mr. Borer. Chairman Wenstrup, Ranking Member Takano, and 
members of the subcommittee, thank you for the opportunity to 
testify today.
    AFGE's National VA Council represents more than 220,000 VA 
employees. We strongly oppose H.R. 1994 as currently drafted 
and urge lawmakers to reject these counterproductive measures 
in favor of AFGE recommendations, including expanded 
whistleblower protections that would truly hold VA managers 
accountable and protect our veterans.
    Presented as accountability for SES and upper management, 
the greatest target in this extreme bill is the 350,000 
nonmanagement employees of the VA, including service-connected 
disabled veterans who clean operating rooms, maintain VA 
cemeteries, and rate disability claims and their coworkers, who 
are PTSD therapists, surgeons, bedside nurses, and so on.
    Stripping job protections from nonmanagement employees will 
increase the mismanagement in the form of retaliation, 
discrimination, patronage, and antiveteran animus. The result 
will be to chill disclosures, destroy employee morale, and 
undermine the retention of the VA's most experienced and 
valuable employees.
    This bill proceeds from the false premise that it is too 
hard to remove a Federal employee under the current system. On 
the contrary, nothing in the current law prevents agencies from 
removing employees. Competent and responsible managers can and 
do remove poor performers and employees who engage in 
misconduct, and they do not unfairly target good employees. 
And, for the record, Federal employees stop getting paid as 
soon as they are terminated.
    Under section 2, all VA employees, including even GS-4 
housekeepers or cemetery caretakers, would lose fundamental 
rights to notice and to be heard, including 30-days advance 
notice of an adverse action, 7 days for an employee to respond, 
an employee representative, a written decision, and an 
opportunity to appeal.
    These provisions would turn the clock back for employment 
rights over 100 years. It is worse than traditional at-will 
employment, and, if enacted, it will make the VA an even less 
competitive employer.
    Unlike private-sector employees, Federal workers cannot 
bring most contract or tort claims to the courts, so the 
administrative due process eliminated by section 2 is often VA 
workers' only real protection. The requirement in H.R. 1994 to 
get the approval of the Office of Special Counsel will not 
protect whistleblowers. This proposal ignores the practical 
realities that not all individuals will file corrective 
actions, and OSC is not well-suited to essentially pre-approve 
the removal of every would-be whistleblower.
    Employees facing discrimination and other prohibited 
personnel practices would be forced into filing OSC complaints 
in order to shield themselves from their new at-will status. 
This helps neither veterans nor whistleblowers, but it will 
precipitate a flood of OSC complaints that will paralyze the 
OSC and obscure the most valid cases of whistleblower 
retaliation.
    Section 3 of the bill would extend the 1-year probationary 
period to 18 months or longer and gives the Secretary 
discretion to extend it even further. Probationary employees 
can be fired very easily under current law. Recently hired 
veterans working for VA managers who failed to train them know 
this all too well. OSC and MSPB already struggle to protect 
probationary employees from unjustified adverse actions because 
the burden of proof on the employer is extremely low. Extending 
the probationary period makes this even worse, and it will 
erode the chances a whistleblower with a legitimate concern 
will come forward.
    Regarding section 4, we do not oppose a responsible study 
of official time, but such a study should be based on objective 
criteria, such as those used by the GAO and the OPM. The use of 
official time in the VA benefits taxpayers and veterans and 
Federal employees because it reduces costly employee turnover, 
it improves service, it creates a safer workplace, and it leads 
to quicker implementation of agency initiatives. Official time 
gives workers a voice to resolve disputes efficiently, protect 
whistleblowers from retaliation, and implement new technology 
and other innovations in collaboration with management.
    If H.R. 1994 is not amended to strike provisions that 
reduce due process, lengthen probationary periods, and attack 
union official time, the AFGE will vigorously oppose the bill. 
Instead, Mr. Chairman, we strongly urge you to demonstrate our 
shared commitment to veterans through positive reform. My 
written testimony lists our reform proposals, and I will be 
happy to discuss those.
    Thank you again for allowing me to testify.

    [The prepared statement of David Borer appears in the 
Appendix]

    Dr. Wenstrup. Well, thank you.
    Mr. Neiweem, you are now recognized for 5 minutes.

                STATEMENT OF CHRISTOPHER NEIWEEM

    Mr. Neiweem. Chairman Wenstrup, Ranking Member Takano, and 
distinguished members of the subcommittee, on behalf of Iraq 
and Afghanistan Veterans of America, our nearly 400,000 members 
and supporters, I would like to extend our gratitude for the 
opportunity to share our views and recommendations regarding 
these important pieces of legislation.
    Starting with H.R. 356, disabled veteran unemployment has 
consistently been much higher than that of the greater veteran 
population, hovering at nearly 20 percent. Disabled veterans 
must be given the support necessary to overcome barriers to 
employment and achieve economic empowerment.
    VR&E exists for that very purpose, and yet many disabled 
veterans don't know it exists, do not participate, or too often 
find the services it offers to be inadequate in securing a 
rewarding career. This legislation would improve the VR&E 
programs by creating an action plan to identify why the program 
is underutilized and put steps in place to improve its output.
    The recommendations that would stem from its enactment 
would include an analysis and plan to increase disabled veteran 
participation. Additionally, a national staff training program 
would be installed for the counselors charged with implementing 
the program to ensure the variety of challenges their clients 
face are understood holistically. Without a fundamental 
understanding of the conditions a veteran is facing, a 
counselor will not be positioned to identify how to help the 
veteran secure a job and begin a rewarding career.
    This legislation would improve a program that has been too 
often regarded as mediocre due to organizational factors that 
relates to the veteran-counselor relationship.
    Turning to H.R. 832, veterans make use of services to 
assist them in transition for the sole purpose of improving 
their economic outcomes. Simply put, they want to succeed and 
secure a brighter financial tomorrow. This legislation would 
create a comprehensive longitudinal study to determine to what 
extent the job services veterans use aid them in securing 
careers.
    Identifying which services veterans use and the amount of 
time they spent on Active Duty, whether or not they are 
collecting unemployment benefits, whether or not they secure 
work, and whether or not they stay with those jobs are all key 
pieces of information, the collection of which this bill would 
require. The report and data developed through this legislation 
is needed to ensure these programs are bringing back a return 
on investment for the veterans who are using them.
    Turning to H.R. 1994, over 1 year after the Phoenix wait-
list scandal shook the veterans community nationwide, the 
Department did not fire one employee for wrongdoing related to 
that incident. IAVA strongly supported the increased 
accountability provision of the Veterans Access, Choice, and 
Accountability Act last year, which gave the VA Secretary 
increased authority to remove the SES employees who did not 
serve our veterans to the standard that they earned. We now 
support in that same spirit expanding this removal authority to 
the greater VA workforce, notwithstanding whistleblowers, and 
publicly applaud Chairman Miller for refusing to give the 
Secretary any less authority than is fully necessary to get the 
Department back on the right track.
    We have heard and agree with DepSec Gibson's testimony a 
few weeks back, which indicated it is currently too hard to 
hire and fire employees. This legislation would shorten the 
appeal period for VA employees engaged in misconduct or poor 
performance so, in those rare cases of wrongdoing, the 
Secretary is empowered to take corrective action more briskly. 
The process of personnel action should not languish in a sea of 
bureaucracy, as it has been.
    I also want to make clear that the vast majority of the VA 
workforce does a fantastic job of serving our veterans every 
single day and too often does not receive enough praise. The 
sooner we get real reforms to stick, the sooner the headlines 
of misconduct will fade.
    And in VA's testimony today you will read the false 
assumption that by enacting this piece of legislation it will 
result in disenheartment in the workforce and that employees 
could leave because of less protections. But the fact is, and 
VA states it, people serve at the VA because they want to serve 
veterans. And 90 percent, probably more, do a great job every 
day. And the idea of getting rid of those few folks the 
Department has proven they haven't been able to since last 
summer will improve morale, not reduce it.
    H.R. 2133, we strongly support this legislation. It would 
allow a veteran transitioning away from Active Duty to receive 
additional education, career, and technical or entrepreneurial 
training. This would empower servicemembers to give them an 
early advantage in transitioning back to the workforce.
    Turning to H.R. 2275, this legislation would create a 
fourth administration at VA that would align all veterans 
education, transition, and job placement programs under one 
agency entitled the Veterans Economic Opportunity and 
Transition Administration. This new administration would be led 
by the Under Secretary for Economic Opportunity.
    Veterans we have spoken to have long reported overlapping 
services have clouded options rather than clarified them. GAO 
reports and feedback from our annual member survey have 
indicated the performance of LVERs and DVOPS under DOL-VETS has 
been stagnant at best and not shown the improvement needed to 
help veterans secure rewarding careers.
    Ineffective oversight and incongruent placement of this 
service within a myriad of other programs over at DOL has not 
proven to be a positive fit, so we strongly support the 
legislation.
    I will yield back and am happy to answer any other 
questions about any other bills.

    [The prepared statement of Christopher Neiweem appears in 
the Appendix]

    Dr. Wenstrup. Well, thank you.
    Mr. Weidman, you are now recognized for 5 minutes.

                   STATEMENT OF RICK WEIDMAN

    Mr. Weidman. Thank you, Mr. Chairman. VVA appreciates the 
opportunity to offer our thoughts on the bills under 
consideration today.
    We very much favor 2361 and look forward to an early 
passage. We would urge you to take a hard look at this bill to 
expand the kinds of activities that work-study students would 
be eligible for, including helping with the preparation of 
veterans' claims and doing other research, such as looking at 
military documents at the Archives to be able to substantiate 
claims. That was used very effectively back in the 1970s and 
early 1980s and, unfortunately, is one of the things that went 
away, and it would be a good thing to bring back, and very 
productive.
    Also, thank you for 2360. We think that that would also be 
a bill that would help significantly.
    Mr. Flores' TAP bill is--the real problem there is not what 
the law says; the real problem is what the military does. The 
Marines solved this problem because the Commandant said, ``You 
will,'' and put it in the commanders' OERs so if they didn't 
send all their people they would be relieved. It is real 
simple. And what is needed is the same kind of engagement from 
the other five services. And, while this legislation may help, 
without that strong commitment from the Secretary and from the 
Joint Chiefs, it ain't gonna happen, bluntly.
    H.R. 356, the Employment Improvement Act, may help. I would 
say that VA in the last few years has made significant progress 
in cleaning up what was, in fact, a real mess in what is now 
known as the VR&E services, but this bill can help by simply 
codifying it and pushing it further.
    The other thing in that regard and that touches on a number 
of things that people talked about today is there is no D-TAP. 
People talk about TAP and they say, well, we are taking care of 
veterans who are disabled. In fact, they are not. D-TAP is a 
myth. It never existed, not back after Vietnam, it did not 
exist in the 1990s with the big drawdown, and it really doesn't 
exist today as a program that makes any sense that gets people 
on track and feeds them right into the programs at VA, 
particularly Voc Rehab. And that needs to happen and needs to 
be very effective.
    I would also point out that it needs to be a much more 
transparent process that involves the veterans organizations in 
a major way. The development of TAP thus far, the VSOs were 
flat ignored and snubbed in terms of making any input. We don't 
claim to have purchase on truth with a capital ``T,'' but we 
know that folks in the bureaucracy don't either. And we do know 
a thing or two, those of us who have been around here for a 
year or two. My friends from IAVA think I started right after 
the Civil War, working in the Pension Building, but it is not 
true. It was a little bit later than that.
    Mr. Weidman. H.R. 832, introduced by Colonel Cook--who is, 
by the way, a life member of Vietnam Veterans of America--is 
moving on the right track. The problem is the way in which the 
Department of Labor keeps score is the largest example of the 
post hoc ergo propter hoc logical fallacy I ever seen. In other 
words, because it happens after, it happens because of. They 
call it a reportable service that they counseled you if you 
went in and registered and they talked to you for 5 minutes or 
less.
    And then if you go out and get your own job with no help 
from them, you show up on a UI tax report the next quarter, 
they cross match your Social Security number against that tax 
report, and if you are back to work they count it as a positive 
termination. That is absurd.
    We need to have a scorecard that is meaningful before you 
can do any real performance evaluation. And Labor is clearly 
not going in that direction. They don't want to be, as an 
agency, don't want to be monitored. And so it is all the more 
reason, leading into why 2275, it is time to move and create 
the fourth division of VA, to move the DVOP/LVER program, and 
we would add the homeless program, the Homeless Veterans' 
Reintegration Program, and other functions, such as VEVRAA, to 
the VA portfolio.
    In regards to H.R. 1994, VVA enthusiastically supports this 
with significant reservations, some of which were pointed out 
by our friends from AFGE. But we do think that there needs to 
be more power.
    What we said in our written statement, I will come back to 
it, and it is shameful that the President and the Secretary 
have not acted to stop the retaliation, which is still going on 
as recently as the past 10 days, against people who stand up 
and tell the truth within the VA. And it is a disservice to 
them, it is a disservice to the people who exhibit that kind of 
courage and that kind of commitment to vets that they would put 
themselves and their families in jeopardy, and it needs to be 
solved, and it needs to be solved now.
    Thank you, Mr. Chairman. I see I am over time, and I 
appreciate your indulgence.

    [The prepared statement of Mr. Weidman appears in the 
Appendix]

    Dr. Wenstrup. Well, I want to thank you all for your 
testimony today. I will now yield myself 5 minutes for 
questions.
    Mr. Varela and Mr. Weidman, one argument I have heard from 
some critics of H.R. 2275 is that this bill would create more 
duplication and not less. And I would like to get your response 
to that criticism.
    Mr. Varela. Thank you, Mr. Chairman.
    In our previous testimony back in February we mentioned 
that this is a win-win for VA and for veterans seeking 
employment and economic opportunities. Again, having to 
navigate between two Federal entities to try to arrive at a job 
can be very discouraging to those seeking employment.
    Also, within VBA they are responsible for those activities. 
They are responsible for vocational rehabilitation in 
employment, they are responsible for the home loan program, 
they are responsible for the administration of education 
benefits as well provided through VA. So if we take that out 
and we put that in a new administration and we allow the VBA to 
focus on claims and appeals, they will be able to concentrate 
more on those activities.
    And then taking those veteran-centric functions from 
Department of Labor and transferring them over to the VA, 
again, it narrows that focus, it narrows that concentration to 
really drive all those services and benefits in one location. 
And veterans want to go to one place to get everything that 
they want to get, and the VA is the logical choice.
    Dr. Wenstrup. Thank you.
    Mr. Weidman. The Department of Labor has had 70-plus years 
to get it right when it comes to veterans. In the creation of 
unemployment insurance, subsequent to the Social Security Act 
in the beginning of the Depression, the employer said: Hey, if 
you are going to tax us for this, we want something to get 
these people back to work. So the job service was created.
    From the outset, largely because the vets came to the Mall 
in 1931, they had veterans preference of that new job service. 
And it didn't work as well as it should, but it worked sort of 
for a while.
    In 1944, when the series of laws that we know as the 
beginning, original GI Bill were passed, they created LVERs, 
the local veterans' employment representatives. Why? Because in 
the midst of the war, for those people coming back, those 
disabled vets who no longer could fight, it wasn't happening 
for them. And once again, after Vietnam in 1977, the Employment 
and Training Administration and the state workforce development 
agency says they weren't placing any Vietnam and disabled 
Vietnam vets into jobs because they couldn't find them. And, 
hence, the DVOP program was created.
    So they have had chance after chance after chance after 
chance. And I will tell you with sadness that the state 
workforce development agency relationship to the VETS flat 
doesn't work. And I lost my mind and moved my family to Albany, 
New York, when I had the opportunity to run what was at the 
time the second biggest LVER/DVOP program in the country in New 
York and discovered that even with the support of the executive 
chamber, the support of both the state senate and the state 
assembly and all the VSOs, and of the Business Roundtable, we 
still couldn't overcome the reluctance of the office managers 
to let the DVOPs and LVERs do their job properly.
    My point is this, it is never going to work. It is a 
structural problem. And it needs to be moved to VA, and with no 
hesitation that if the workforce development agency doesn't do 
their job, they contract with somebody who will get it done. 
Our veterans deserve better than this dissembling that 
continues to go on, particularly with employment. The best 
doggone readjustment program we can offer any veteran of OIF/
OEF or future conflicts is meaningful work at a living wage. 
And if we don't do that, all the rest is eyewash, because that 
would help them reestablish a sense of worth within our 
society.
    Thank you, Mr. Chairman.
    Dr. Wenstrup. Thank you.
    Mr. Borer, how do you respond to those that say that good 
employees want to work with good employees and watching someone 
you work with skirt the rules and not be held accountable 
damages morale and hurts retention?
    Mr. Borer. Well, we are all for accountability, Mr. 
Chairman, and our concern with this bill is that it doesn't 
actually improve accountability. Accountability to us means it 
is not mutually exclusive with the idea of due process, so that 
removing due process rights doesn't mean that managers are 
going to be held more accountable. We think the opposite is 
true. We think the unintended consequence here is if you reduce 
the rights of the frontline employees, fewer of them are going 
to speak up and hold their coworkers or their bosses 
accountable.
    We talked to whistleblowers at AFGE. We have dealt with, I 
believe, four dozen who have been threatened with retaliation 
since the wait list scandal has started. The very first thing 
they ask is: Can I get fired if I speak up? They don't ask: Is 
there a streamlined process for firing me if I get in trouble 
here?
    Due process is a fundamental piece of that picture, and if 
you pull out that fundamental piece you are going to get less 
whistleblowing and less accountability.
    Dr. Wenstrup. I think I now recognize Ranking Member Takano 
for any questions he may have.
    Mr. Takano. Thank you, Mr. Chairman.
    I spoke to a student veteran yesterday who was fortunate to 
have received excellent education counseling at the community 
college he first attended using his GI benefits. He has now 
transferred to a well-known and, some would say prestigious, 4-
year university here in Washington, DC.
    However, not all veterans share his story. He told me he 
knows many young veterans who were not lucky enough to receive 
such good advice and chose to use their GI Bill benefits to 
attend programs that they later learned were not properly 
accredited. They were faced with the infuriating choice of 
either completing a worthless degree or starting over at a new 
program after having wasted both their valuable benefits and 
time.
    Given that current law places many veterans in this 
untenable situation, I would like Mr. Gehrke of the VFW to 
expand upon your support, your comments on H.R. 2360, the 
Career-Ready Student Veterans Act.
    Mr. Gehrke. As I mentioned, I know a couple examples of 
legal degrees, either a paralegal degree or a law school 
degree, where there are schools who offer these degrees. 
However, when the veteran graduates with those degrees, they 
don't have their accreditation or their certificate 
requirements to go and actually practice paralegal or their 
legal practice. So you have to wonder if that is the greatest 
benefit to the veteran as well as to the taxpayer who just paid 
out thousands of dollars for this veteran to get a degree that 
he now cannot use or at least has to go get additional 
certification requirements.
    So I think it is the best interest to ensure that degrees 
are meeting the expectation of the veterans and the employers, 
and that is the most important thing.
    Mr. Takano. I thank you for those comments.
    Before I ask my next question, and it is going to be on 
Chairman Miller's VA Accountability Act, H.R. 1994, I am 
concerned about the effect that the VA Accountability Act would 
have on VA employees' due process rights. As we consider this 
matter, I think it is important for members to understand the 
background of the Merit System Protection Board and the 
necessary protections to prevent civil servants, especially 
whistleblowers, from being unfairly targeted.
    So I ask unanimous consent to include a May 2015 report to 
Congress from the MSPB on due process in Federal civil service 
employment into the record.
    Dr. Wenstrup. Without objection.

    [The prepared statement of Mr. Rick Weidman appears in the 
Appendix]

    Mr. Takano. Continuing my question. There is a disagreement 
about how H.R. 1994 would affect whistleblowers, and I am 
concerned that the bill would deter employees from reporting 
the misconduct of their supervisors because they could be 
easily fired out of retaliation.
    Can you talk about how H.R. 1994 will affect 
whistleblowers? Again, Mr. Gehrke.
    Mr. Gehrke. So, I mean, further context, I think last year 
it was established that there are senior leaders within VA who 
are not doing a good job and who are at times neglectful. My 
fear is that those very people who should be getting fired who 
are not getting fired will then be in charge of firing their 
subordinates.
    So are you really going to give that authority to a senior 
manager, who subordinates may not trust, who may not be doing a 
good job themselves, and then might use his subordinates as a 
scapegoat, especially if they are blowing the whistle on him 
and saying, ``This is a bad senior leader who is doing bad 
things''? Will he have the ability to punish that subordinate 
and have the ability to initiate that type of firing process 
for a subordinate who may otherwise be doing a good job or just 
might not be getting the training and supervision he needs from 
a senior leader to do a good job? So that is the fear.
    However, I think, to be clear, it is the VFW's position 
that both the hiring and the firing process is far too arduous 
to complete. But you have to do everything at once and you have 
to be careful with who you are giving the authority to fire 
these employees to.
    Mr. Takano. Mr. Gehrke, thank you for your testimony and 
the views of the VFW.
    Dr. Wenstrup. Mr. Bost, you are recognized for 5 minutes.
    Mr. Bost. Yeah, I would like to continue down, if I could, 
with the question on 1994.
    First off, let me tell you that, one, in my former life I 
was a union firefighter. Two, I always worked very hard when I 
worked in a state for AFSCME and those that were under that 
union. But I have a question, because since having this job, a 
certain case came up. Let me ask this, because I don't know. I 
am new at this.
    Could you please tell me the doctors that are hired for the 
VA, do they also fall under your protection on the unions?
    Mr. Borer. Yes. AFGE represents thousands, probably, of 
doctors.
    Mr. Bost. I wanted to confirm that before I ask the next 
question. When working on the problems that we have with our 
VA, I asked specifically for constituents to come forward. I 
have a situation where I couldn't believe it when the veteran 
said it, but I know him well. And he said that he would have 
liked to have found out about his hernia, but because of the 
religious beliefs of the doctor he saw, she was not able to 
examine him. They cannot fire her.
    Now, I would like to hear, if we don't move forward with 
this, what do we do with those situations? Because I stand for 
my workers and employees, and I want them to have a way to make 
sure that they aren't improperly treated. But I want my 
veterans to be treated correctly. And I don't know, whenever I 
went to the VA, my local VA, and asked specifically, the 
administrator, he says, yeah, he knows about it. Well, no. No, 
there needs to be a way to let them go or make them ear, nose, 
and throat specialists, but good heavens.
    So this is the type of things we are trying to do. And I 
want to protect the employee. I understand that. But do you 
have an answer on how the language can be put together, other 
than saying, ``Okay, we think this goes too far''? Because my 
final job, I feel like, is to protect our veterans.
    Mr. Borer. Sure. And we share that commitment. We have, 
again, 100,000 members in the VA who are there, as someone said 
earlier, primarily because they believe in serving our 
veterans.
    In the doctor's situation, she has a bona fide religious 
belief that interferes with that particular duty, that is an 
EEO matter. And so, as you said, maybe somebody else could do 
that exam, I would think. There are certainly other doctors 
available. I would think that is more of a management problem 
where they have to have the right people doing the right exams.
    Mr. Bost. And my question--of course, that is a specific 
issue--but I don't know if it was a change of religion, because 
somehow you had to get through medical school. And I don't know 
at what point do we give the power to the administrators to 
administrate and how we would do that. So, I mean, it is 
something I am going to watch very, very closely. There are the 
cases out there, and we have got to make sure we are very wise 
with what we do.
    I yield back.
    Dr. Wenstrup. Ms. Titus, you are recognized for 5 minutes.
    Ms. Titus. Thank you, Mr. Chairman. And thank you and the 
ranking member for having the hearing today, and also for 
including the legislation that I introduced, along with a 
former member of our committee, you heard from him earlier, 
Colonel Paul Cook of California. We worked together on this, 
and I was very pleased to do it.
    Our bill, the Veterans Employment and Training Service 
Longitudinal Study Act, would require a longitudinal study for 
job counseling, training, placement services, so that we can 
better monitor the effectiveness of these programs.
    And I heard several of you mention that you supported this, 
and I appreciate you offering some comments about how to make 
the bill work better. And I look forward to working with you on 
that and hoping that we can move it through this committee.
    I would also like to go back and discuss H.R. 1994, VA 
Employee Accountable Act. We all are in agreement that those 
serving our veterans as well as public servants in every 
department need to be held at the highest level. But I have got 
some concerns about this legislation, like some of you do, that 
it is going to affect the VA's efforts to recruit and retain 
the most qualified employees.
    Now, I know that the Secretary has prioritized recruiting 
the best and brightest to join the VA, and I think that is 
important. We don't want to do anything that ties his hands.
    In Nevada, we have a hard time recruiting. We don't have a 
permanent director of the Reno RO. We have a hospital, brand 
new hospital without a permanent director. We have a hard time 
getting doctors to come to that hospital. So we just don't want 
to do anything that stops that process.
    Mr. Gehrke, you mentioned in your testimony that the VA--
you highlighted it, several of you mentioned it, but you 
highlighted it--that the VA needs to be able to quickly fill 
vacancies within the workforce. And you referred to the report 
that the VFW issued in September, ``Hurry Up and Wait.'' In 
this report you suggest that Congress examine ways to 
streamline the hiring process so that we can hire the best 
employees.
    I wonder if you would share some of the details of that and 
maybe give us some concrete proposals of how we could do that, 
because I would like to work with you and the other VSOs on 
improving that process, and then I would ask them if they have 
any particular suggestions as well.
    Mr. Gehrke. Absolutely. Thank you for the question.
    I think that needs to be extremely focused on. Just out of 
curiosity, I was looking today, and there are 2,500 vacant VA 
jobs currently posted on USAJobs. Now, I was looking at out of 
curiosity, I am not interested in leaving the VFW, just in case 
my boss is watching. But 1,600 of those positions have been 
pending for over 60 days. There are 81 positions open in Ohio 
with 69 of them being pending longer than 60 days, 268 in 
California with 178 been pending for longer than 60 days, and 
40 in Nevada with 15 open for 60 days or greater. And as you 
indicated, some of those are pretty high-level positions that 
should be filled.
    Now, you have to wonder, if you fired all the employees 
today, if you had a magic wand and you did that, you would 
think that there would be an instant gap in services, because 
there would be nobody there. However, if you are able to hire 
all those 2,600 employees you would think that services would 
increase immediately. So I think that needs to be in the frame 
of thought.
    Now, there are multiple recruitment training and retention 
reforms that should probably take place throughout the VA and 
the Federal Government as a whole. I think three 
recommendations that could happen immediately. One is review 
recruitment patterns, as well as quit rates for positions, 
especially like schedulers, and take steps to maintain a 
constant applicant pool, like recruiting at 110 percent rather 
than at 100 percent or as they open.
    Establish automatic recruitment procedures and avoid 
repeated approval delays and remove requirements to backfill 
actions. I think hiring managers really feel like it takes too 
long to get their new hires approved through the process. As 
well as develop standard operating procedures throughout VA on 
hire, training, and retention practices.
    Right now, each VA medical center has their own hiring 
practices, their own training practices. Some work better than 
others, however. So if you are able to take the best practices 
and then implement them VA-wide, as well as share that 
information and how that is working, you would think that you 
would be able to come up with some better solutions that are 
happening right now. So we strongly recommend VA take the 
following actions.
    But I am definitely eager to work with you and your staff 
to come out with some concrete details and suggestions on a way 
to move on forward on that, that we can hopefully couple with 
the chairman's legislation.
    Ms. Titus. That would be great. Thank you.
    Thank you, Mr. Chairman.
    Dr. Wenstrup. In followup to that just for a second, Mr. 
Gehrke, if I could intervene here, you brought up recruiting at 
110 percent, which I think is an interesting concept. Are there 
any other Federal agencies right now that are doing that that 
you are aware of and what kind of success rate are they having 
in making sure that their vacancies are filled quickly?
    Mr. Gehrke. Not that I am aware of. And like I mentioned, I 
think VA is one example. I mean, we hear of horror stories all 
the time in Washington, DC, of the Federal hiring process and 
the firing process, and I think they are symptomatic of the 
whole Federal Government.
    I would love to see VA become a model employer both in 
their firing and hiring practices and then be able to 
disseminate that to other Federal Government agencies. So we 
would be willing to work with the committee to make that 
happen.
    I do have to say, though, if we are going to create unique 
standards for VA, we should make sure that those employees are 
recognized appropriately.
    Dr. Wenstrup. Thank you very much.
    Ms. Rice. you are recognized for 5 minutes.
    Ms. Rice. Thank you, Mr. Chairman.
    I just want to follow up on a question that Mr. Takano 
actually asked Mr. Gehrke. I want to ask it of Mr. Borer.
    What are your concerns about how H.R. 1994 would affect VA 
whistleblowers?
    Mr. Borer. Well, as I said, whistleblowers that come to us, 
the very first question they ask is: Am I going to get in 
trouble if I stand up and tell what I know? And so when you 
start subtracting their due process rights and you go to a 
system that essentially makes them at-will employees, our 
advice is going to change. We are going to have to begin to 
tell them: No, you really don't have much protection anymore if 
this bill passes. And I can guarantee you that whistleblowers 
will then stand up and leave my office and never mention it 
again to anybody because they will be afraid to lose their job. 
So it is really that simple.
    And as I said before, it is not that it is impossible to 
fire Federal employee. I believe the VA fired 2,000 people in 
2014. It is just a matter of doing the paperwork. I think 
managers, if you surveyed the managers, they don't like doing 
reports either, but they do reports. You just have to go 
through a process, and it can be done.
    Ms. Rice. Mr. Borer, I am going to direct this question to 
you, but also would like everyone on the panel to answer it if 
you do have an answer.
    One of the things that in the short time that I have been 
here that I have recognized is that without a profound culture 
shift within the VA we are going to continue to have panels of 
people that are going to talk about problems over and over and 
over again. And whenever I have put that question to higher-ups 
in the VA there really has been no sufficient answer as to how 
you really implement a culture shift. Because that has to take 
place, and I think that comes from the top down.
    You gentlemen all seem to me to be qualified enough to 
maybe give some suggestions. And I will just start with you, 
Mr. Borer, then anyone else who wants to add.
    Mr. Borer. That is a concern that we have. And the culture 
at the VA until now, in years past, has been anybody that 
sticks their hand up, we chop it off. And so we have seen a lot 
of whistleblowers retaliated against. And that was part of the 
management culture at the VA.
    I have to say, we have met with the Secretary repeatedly 
about this. We get very good signals from the Secretary, but it 
is a huge organization, as you know. It does have to start at 
the top, but there is great difficulty in pushing cultural 
change down through an organization this size.
    We have partnered with the Secretary on this. We are 
working very hard to make that happen. But that great middle 
management inside the VA is what we need to push in a new 
direction, and that is going to take some time.
    Mr. Weidman. It is precisely because of that that, I think, 
we need 1994. In our statement we said that the lower the 
grade, the more the due process protection should be. And 
earlier SES was put on the line, but nobody has been let go. 
And it is those below them who are still grade levels, grade 16 
or whatever is comparable, aren't covered by the earlier act. 
So something needs to be done at that level.
    I will tell you also that the culture change of creating a 
fourth division, you have got a chance to build a corporate 
culture from the ground up. And that corporate culture of that 
division should be totally different than compensation and 
pension. It is a, what am I going to do, how can I do for 
myself? And within the VA at large, it needs to stop 
patronizing veterans.
    Let me give you an example. In a discussion, I will make it 
sound more polite than it actually turned out to be, over doing 
chest x-rays with freestanding CAT scans, which is now approved 
for Medicare and Medicaid payments, VA is still refusing to do 
it. And the woman who is in charge of preventive health says: 
Oh, well, there will be false positives, and we don't want to 
upset the veterans. And I said, what? Are we cattle? You think 
we are going to stampede and that you will get hurt? Is that 
what it is?
    I mean, it is that the attitude towards veterans of not 
respecting us as individuals and collectively that makes us 
wild on our feet. And in a discussion following up on that with 
Sloan Gibson and with the Secretary, they said: Well, it is 
really not that easy, Rick. I said: What you guys need is the 
archangel of death. I am 70 years old. I have no wish for a VA 
career. Hire me for a year. I will fire the suckers.
    And change the attitude. You cannot change the attitude if 
you don't have line authority. This crazy five-area thing, this 
is nothing that we haven't said in detail to them. They don't 
have any line authority. And we said that is ridiculous. They 
are all going to come together, said, yeah, we are all with you 
for our new MyVA, and they are going to come back and do the 
same damn thing. Why? Because you don't do their officer 
evaluation reports.
    You have got to connect and from the top down, say: This is 
going to happen. This is happening on your watch. If you don't 
fix it, you are down the road. And if they don't fix it, then 
they are down the road, and you bring in somebody else. They 
are good people, but nothing ever happens to the bad guys now, 
ever. And that is what makes us crazy. It has made us crazy for 
30 years.
    Ms. Rice. I think you have hit the nail on the head, 
because if you can't show accountability there can be no 
culture shift.
    Mr. Weidman. Precisely.
    Ms. Rice. Thank you, gentlemen.
    Mr. Weidman. And you have to enough good people that you 
can start over, but you have to start at the top and send the 
right cues.
    Ms. Rice. Thank you, gentlemen.
    I yield back. Thank you, Mr. Chairman.
    Dr. Wenstrup. Well, if there are no further questions from 
our panel, you are now excused. And I thank you again for your 
testimony here today.
    Dr. Wenstrup. I want to now recognize our final panel of 
witnesses today. First, I want to welcome back Mr. Curt Coy, 
Deputy Under Secretary for Economic Opportunity at the U.S. 
Department of Veterans Affairs. And he is accompanied by Ms. 
Cathy Mitrano, Deputy Assistant Secretary for the Office of 
Resource Management at the U.S. Department of Veterans Affairs.
    We also have Ms. Teresa Gerton, who is now the Acting 
Assistant Secretary for the Veterans' Employment and Training 
Service at the U.S. Department of Labor. And finally, we have 
Dr. Susan Kelly, Director of the Transition to Veterans Program 
Office in the Office of the Under Secretary of Defense for 
Personnel and Readiness at the U.S. Department of Defense.
    I want to thank you all for being with us today.
    Mr. Coy, if you are ready, then we will begin with you. And 
you will be recognized for 5 minutes as soon as you get 
settled.

                   STATEMENT OF CURTIS L. COY

    Mr. Coy. Thank you, Mr. Chairman. And good afternoon, Mr. 
Chairman, Ranking Member Takano, and other members of this 
subcommittee. Thank you for the opportunity to be here today to 
discuss legislation pertaining to VA economic opportunity 
programs. Accompanying me today is Cathy Mitrano, Deputy 
Assistant Secretary for the Office of Research Management.
    We are here to discuss several impactful bills. We will 
defer to our colleagues at Labor and Defense on those that 
pertain to their programs.
    With respect to H.R. 2275, Jobs for Veterans Act, while we 
appreciate the committee's focus on improving employment and 
economic opportunity for veterans by consolidating various 
programs, VA does not support the bill. VA believes there is 
currently an appropriate management structure in place to 
oversee veteran programs in a collaborative environment.
    VA is pleased, however, to see several bills that seek to 
improve our vocational rehabilitation and employment services 
to our wounded warriors and disabled veterans. We support the 
intent and purpose of most of the provisions of these bills and 
would like to work with the committee to ensure the bill 
language meets that intent. For example, a requirement to 
ensure voc rehab courses of education meet the same 
requirements as those for the GI Bill. We are currently doing 
so.
    Less than 1 percent of voc rehab plans have courses that 
are not GI Bill approved, but there are occasional instances 
where veterans' requirements cannot be met with GI Bill 
courses. We agree that voc rehab housing modifications are best 
managed by our Specially Adaptive Housing grant experts in our 
Loan Guarantee Service, but the bill as written may not meet 
the intent or have unintended consequences.
    VA supports the intent to prioritizing VRE services and 
currently tries to do just that through our IDES program and 
ensuring seriously and very seriously injured veterans receive 
VRE appointments within 10 days and have established plans 
within 30 days. Conducting a complete study, likely with 
contractor support and to include input from our various 
stakeholders, would certainly take time and resources.
    VA supports and appreciates the intent of reducing 
redundancy and inefficiencies in the IT process for VRE claims. 
We are currently working with our Office of Information 
Technology for a new case management system. This effort would 
complement that effort subject to availability of appropriated 
funds.
    Another bill would require VA to develop and publish an 
action plan for improving and in training and rehabilitation 
services for our VRE clients. While we support this effort, we 
believe we are currently focusing on these issues, and we would 
be happy to discuss some of those efforts.
    With respect to the VA Accountability Act of 2015, VA will 
continue to work with the committee and VSOs on how the 
Secretary can best hold employees accountable while preserving 
the ability to recruit and retain highly skilled workforce that 
VA needs to best serve veterans.
    VA supports the intent behind the Career-Ready Veterans 
Act; however, we do not support the bill as currently drafted 
and would be happy to work with the committee to ensure the 
language meets that intent. We agree that courses or programs 
of instruction should ensure students can meet the licensure 
and certification requirements of a state's particular 
vocation. If a veteran is using their well-earned GI Bill 
benefits to become a barber or a nurse, the program should 
prepare them to be obtain a barber certificate or a nursing 
license. We are ready to work with the committee to address any 
inconsistencies in that bill.
    VA fully supports the workstudy program for a student 
veterans act that expands the program to those efforts 
previously expired in 2013 and extending the current expiration 
date.
    Mr. Chairman, this concludes my statement. Thank you for 
the opportunity to appear before you today. We would be pleased 
to respond to any questions you or other members of the 
subcommittee may have. Thank you, sir.

    [The prepared statement of Mr. Coy appears in the Appendix]

    Dr. Wenstrup. Well, thank you, Mr. Coy.
    Assistant Secretary Gerton, you are now recognized for 5 
minutes.

                 STATEMENT OF TERESA W. GERTON

    Ms. Gerton. Good afternoon, Chairman Wenstrup, Ranking 
Member Takano, and members of the subcommittee. Thank you very 
much for the opportunity to participate in today's hearing. As 
Acting Assistant Secretary of the Veterans' Employment and 
Training Service at the Department of Labor, I appreciate the 
opportunity to discuss the Department's views on pending 
legislation and proposals impacting veterans.
    While this hearing is reviewing several bills under 
consideration by the subcommittee, I will limit my remarks to 
the Job for Veterans Act and the Veterans Employment and 
Training Service Longitudinal Study Act.
    The Jobs for Veterans Act of 2015 seeks to establish the 
Veterans Economic Opportunity and Transition Administration 
within the Department of Veterans Affairs and to transfer DOL's 
veterans programs to the VA. The administration does not 
support moving the Veterans' Employment and Training Service or 
its programs to VA.
    The veterans employment services DOL provides are well 
integrated into the public workforce system that is overseen 
and funded by DOL and shifting these services to VA would 
weaken this connection. VETS is able to accomplish its mission 
by working closely with other parts of the Department, 
including the Employment and Training Administration, which 
administers numerous core employment and training formula 
programs.
    Together, these DOL programs provide a unified and 
complementary approach to serving and protecting the 
reemployment rights of veterans and have operated together 
within the states for decades. We believe that moving vets to 
another agency will diminish the synergy gained through 
alignment of these programs with other Department of Labor 
employment and training programs, as well as those that protect 
the rights of servicemembers, veterans, and their families.
    Further, DOL's connection with governor-appointed state or 
local workforce boards and state workforce agencies that 
oversee the nearly 2,500 American Job Centers across the Nation 
facilitates veterans' employment with large national employers, 
as well as those small and medium-sized businesses that do most 
of the hiring. Our long-established relationship with the state 
workforce agencies is a partnership that delivers proven and 
positive results.
    The movement of veterans' employment programs and services 
from DOL to the VA would generate inefficiencies by removing 
existing employment programs and services for veterans from the 
national employment services network that already exists for 
all America's job seekers and workers.
    Other significant changes are currently underway in the 
public workforce system as it affects education, training, and 
employment services for veterans and their families. The 
Workforce Innovation and Opportunity Act, signed into law last 
year, was the first legislative reform of the public workforce 
system in over 15 years. This transformational legislation, 
which passed by a wide bipartisan majority, reaffirmed the 
roles of the American Job Center system that served over 1.1 
million veterans last year and brought together and enhanced 
several key employment, education, and training programs.
    The Opportunity Act modernized the public workforce system 
to help job seekers and workers access the services they need 
to succeed in the labor market and match employers with the 
skilled workers they need to compete in the global economy.
    The Opportunity Act also requires a new data reporting 
structure. Currently, reporting requirements are met through 
the state workforce agencies which are funded by DOL's 
Employment and Training Administration. The reporting system 
for veterans' employment outcomes is part of the Department's 
reporting regime for the workforce system. Any requirements to 
adjust or change collection of veterans' data under H.R. 2275 
would require extensive coordination between two departments 
instead of two agencies in the same department. Further, 
requiring VA systems to integrate with the new labor reporting 
system is likely to generate tens of millions of dollars in 
additional costs.
    The administration wants to ensure that we build on the 
established relationships and the improvements called for in 
the Workforce Innovation and Opportunity Act to modernize the 
public workforce system and American Job Centers to better help 
our transitioning servicemembers and veterans obtain family 
sustaining jobs. For this reason, the administration does not 
support any legislation that would undermine its progress or 
ability to help veterans and transitioning servicemembers 
achieve positive employment outcomes.
    The Department does support the enactment of the Veterans 
Employment and Training Service Longitudinal Study Act, which 
would direct the Secretary to enter into a contract with a 
nongovernment entity to conduct a statistically valid 
longitudinal study of veterans and the job counseling, 
training, and placement services for veterans provided by the 
Department. However, we do have technical concerns enumerated 
in our written statement and look forward to working with the 
committee to address those issues.
    Chairman Wenstrup, Ranking Member Takano, distinguished 
members of the subcommittee, this concludes my statement. Thank 
you for the opportunity to be part of this hearing, and I 
welcome any questions you may have.

    [The prepared statement of Ms. Gerton appears in the 
Appendix]

    Dr. Wenstrup. Thank you, Ms. Gerton.
    Dr. Kelly, you are now recognized for 5 minutes.

                  STATEMENT OF SUSAN S. KELLY

    Ms. Kelly. Chairman Wenstrup, Ranking Member Takano, and 
members of the subcommittee, I am pleased to appear before you 
today to discuss and share the Department of Defense's views 
relating to several pieces of proposed legislation.
    Regarding H.R. 2133, which would amend section 1144 of 
Title 10, United States Code, the Department does not believe 
it is necessary. The current DoD policy provides servicemembers 
the opportunity to participate in all training tracks in 
addition to the core transition GPS curriculum. These training 
tracks are now offered at 206 military sites worldwide. The 
Department believes that further legislation to permit 
servicemembers to receive these specific training tracks would 
limit our flexibility to modify the training and education 
needed by transitioning servicemembers as the program evolves.
    Regarding H.R. 2275, section 4, the Department believes 
that the best way to maintain an all-volunteer force is to 
demonstrate to potential recruits that servicemembers thrive 
when they return to the civilian workforce. One way to improve 
the likelihood of this is to ensure our servicemembers receive 
the best training possible on employment opportunities, 
resources, rights, and practices.
    Since the passage of the Vow to Hire Heroes Act of 2011 and 
the redesign of the Transition Assistance Program, the 
Department has gained a greater appreciation for the value that 
the Department of Labor Employment Workshop provides our 
servicemembers. The Department of Labor's familiarity with the 
modern labor market, expertise in assisting with credentialing, 
licensing, and finding registered apprenticeships, and its 
connection to state labor offices makes it the single best 
organization in our Federal Government to provide labor-related 
services not only to our servicemembers, but to all American 
citizens.
    The success of the DOL's Employment Workshop proves its 
value. On average, 91 percent of transitioning servicemembers 
who participate in a 3-day employment workshop say the training 
enhanced their confidence in transition planning, 93 percent 
said they will use what they learned, and 96 percent said the 
facilitators were knowledgeable about the material.
    The Employment Workshop's emphasis on providing 
servicemembers early access to state-run American Job Centers 
is a critical factor in assisting our servicemembers in finding 
employment. Segregating veteran services and staff from the 
employment services available to the rest of the Nation is 
inefficient and potentially puts veteran reintegration into 
civilian life at risk.
    Since the revised workshop began in 2012, the outlook for 
servicemembers transitioning to the civilian workforce has 
brightened every year. This is good news. But to best ensure 
continued progress, as well as to discover innovative ways to 
build what Secretary Carter has called the force of the future, 
DoD and DOL must continue to work together.
    We would hope not to have diversions from that close work 
with DOL, as we strongly believe that it is the single-best 
organization in our Federal Government to provide labor-related 
services.
    Regarding the draft bill that would amend Title 38, U.S. 
Code, the DoD believes that this draft bill appears to mirror 
several of the education proposals from the Military 
Compensation and Retirement Modernization Commission final 
report from January of 2015.
    In response to that report, the DoD deferred comment until 
it has more data on the impacts of transferability on 
educational benefits on retention. Similarly, the Department 
stated on May 13 in testimony to the Senate Committee on 
Veterans' Affairs that without data enabling the Department to 
understand the potential effects on retention the Department 
cannot support a bill that changes the Post-9/11 GI Bill 
housing stipend for dependents or the proposed language to 
increase the eligibility requirements for transferring Post-9/
11 GI Bill benefits.
    To this end, the Department has sponsored a study with Rand 
to review educational benefits for servicemembers to include 
the benefits of the Post-9/11 GI Bill and the impacts on 
retention with a focus on impacts of transferability. We 
anticipate the study to be completed in the summer of 2016.
    Regardless of the outcomes of the study, the Department 
strongly believes that those servicemembers who have already 
committed to additional service obligations should be 
grandfathered and their dependents should not be subject to any 
reduction in transferability that may be imposed by further 
legislation. The Department defers to the VA regarding any 
costs to this bill.
    Mr. Chairman, I thank you and the members of this 
subcommittee for your outstanding and continuing support for 
the men and women who proudly wear the uniform in defense of 
our great Nation.

    [The prepared statement of Ms. Kelly appears in the 
Appendix]

    Dr. Wenstrup. I thank you all for your remarks. And I now 
yield myself 5 minutes for questions.
    And I will start with Ms. Gerton. We are all trying to get 
the best opportunities for our veterans to succeed. So I would 
like to get your response to the comments from the veterans 
groups that we heard earlier on the previous panel that believe 
that vets and programs for veterans in general are lost in a 
myriad of other missions within the DOL. You have many, many 
missions within the DOL, and they believe, as they testified, 
that transferring these programs to VA is the best option. So I 
am curious your response to their thoughts on that process.
    Ms. Gerton. Mr. Chairman, thank you for the question.
    I think there are a number of critical points about how DOL 
delivers services for veterans that we have to keep in mind. 
Across all of its services, in all of the Job Centers in the 
country last year, the Department of Labor, through its state 
workforce agency activities, served over 1.1 million veterans. 
The JVSG program that VETS administers as part of that served 
only 330,000 out of that 1.1 million.
    First of all, moving the VETS programs to the VA only moves 
the support for those 330,000, and that is a counseling and 
case management type of support. It separates then the support 
for those veterans who need the greatest amount of additional 
services to prepare them for employment, those who have 
significant barriers to employment, those young veterans, and 
those who were separated because of involuntary force 
downsizing decisions. It separates the counseling support for 
those folks from the embedded services that DOL delivers in 
employment and training and education opportunities and 
employment readiness that are delivered by the broader Job 
Center services.
    So in the first point, we think that separating the 
services actually would diminish the outcomes for the veterans 
who need the greatest amount of support because it moves the 
counseling and case management away from the embedded services.
    The second point I would make is that VETS serves within 
DOL as the voice of the veteran and the advocate for the 
veteran across all of DOL's program. So removing VETS from the 
Department of Labor would remove that voice of the veteran from 
all of the policy decisions that DOL is making.
    And I include in that recent efforts that improve and 
streamline the accreditation of apprenticeships so that 
veterans can serve in them, take greater advantage of them, and 
use their GI Bill housing stipend to augment apprentice 
salaries. Additionally, our work with the Office of Federal 
Contract and Compliance Programs on behalf of veterans to make 
sure that Federal contractors are meeting their veteran hiring 
obligations, and our work on USERRA that the GAO documented in 
a study last year that clearly demonstrated that VETS is doing 
a better job in protecting veterans' reemployment rates.
    So those points, and a number of the arguments that we 
enumerated in our written testimony, demonstrate that we 
clearly believe, and the administration supports, that the 
retention of VETS inside DOL because it delivers a better 
outcome for veterans, not worse.
    Dr. Wenstrup. So you would say then that the conclusions 
drawn by the VSOs are incorrect?
    Ms. Gerton. Sir, I cannot dispute that in the past VETS has 
had some difficulty in administering those programs. I would 
point to recent reports over the last 2 to 3 years that 
demonstrate a significant improvement in those outcomes. We 
have a number of externally delivered reports, including from 
the GAO, from the Center for Naval Analysis, from the Summit 
Institution that demonstrate the value of the Veterans' 
Employment and Training Service's services to veterans. We have 
data over the past 10 years that demonstrate a significant 
improvement in veteran outcomes.
    We would believe that the most recent history would tend to 
overwrite a long past history and say that we have got the 
organization on the right track.
    Dr. Wenstrup. Well, thank you.
    Mr. Coy, at the bill signing for the Veterans Access Choice 
and Accountability Act, President Obama made the following 
statement in support of accountability measures that are 
essentially the same authority provided in section 2 of H.R. 
1994. And I will quote the President here. He said: ``Now, 
finally, we are giving the VA Secretary more authority to hold 
people accountable. We have got to give Bob''--McDonald--``the 
authority so that he can move quickly to remove senior 
executives who fail to meet the standards of conduct and 
competence that the American people demand. If you engage in an 
unethical practice, if you cover up a serious problem, you 
should be fired, period. It should be that difficult.'' End 
quote.
    So what has changed since that time that the President and 
the administration have now changed their mind?
    Mr. Coy. If I may, Mr. Chairman, I would like to ask Ms. 
Mitrano to address that specific question.
    Ms. Mitrano. Thank you.
    Well, first of all, I don't think that we differ with the 
President's statement or this committee's stated desire for 
accountability within VA. Certainly, we are all about trying to 
hold people accountable for those unethical and those 
egregious-type conduct actions that we have seen displayed. 
However, this piece of legislation extends to all of the GS 
employees throughout VA, and it is targeted at VA only, it is 
not a government-wide reform of course. And we believe it 
simply is going a bit too far when it comes to the due process 
depravations to that broad a group of employees.
    Dr. Wenstrup. So let me ask you. So you would prefer it be 
extended to every agency, not just VA?
    Ms. Mitrano. Well, at least it would not then have the 
disparate effect of targeting VA employees only in this time. I 
think that certainly some studies should be done to improve the 
government-wide adverse action or----
    Dr. Wenstrup. Well, I am just curious what has changed 
since the time of the statement, because at the time of the 
statement--the problem lies within the VA. And so we are 
addressing the problem that is very, very clear and in front of 
the American people. So I don't understand what has changed 
since the President made that comment.
    Ms. Mitrano. Well, I think the scope of the legislation is 
what is changing here in this piece of legislation. It is not 
just the most senior leaders and VA who have the 
responsibility, higher level of responsibility of ensuring 
these types of actions don't occur, but it is the wage grade 
employees, it is all the way down, as my colleague from AFGE 
mentioned, to the folks that are cleaning the hospitals out and 
providing service to our employees.
    And this legislation certainly does deprive them, 
basically, of every due process right to their livelihood. And 
so I think that the scope is significantly different when you 
look at the 350,000 or more employees that VA has, a third of 
which are veterans themselves, who have put their own lives on 
the line fighting for the very constitutional protections, such 
as due process and the preservation of property right or the 
right to preserve your livelihood.
    Dr. Wenstrup. Well, I just don't see what has changed since 
the time that statement was made. But I appreciate your 
comments here today.
    And, with that, I yield back my time.
    And, Mr. Takano, you are recognized for 5 minutes.
    Mr. Takano. Thank you, Mr. Chairman.
    Dr. Kelly, you said there is no data on the effect of the 
change in transferability. But can you tell me just how 
important the educational benefits are to the military's 
ability to recruit people into the voluntary force? I mean, 
where does that rank in terms of an incentive for people to 
join the military?
    Ms. Kelly. I can tell you that 50 percent of recruits 
identify education benefits as one of the reasons, one of the 
compelling reasons, that they want to join the Armed Forces.
    Mr. Takano. It is a compelling reason, it is one of the 
number-one reasons or top three reasons why people--you don't 
know about that?
    Ms. Kelly. I don't have that data, no. But I will----
    Mr. Takano. But at least 50% identify this as a reason they 
join.
    Ms. Kelly. I will check that out when I go back too.
    Mr. Takano. I would like to know that. If we knew that, it 
would help me make some inferences, even in advance of the 
data, on specifically how transferability should work.
    It is my own sense that it is a very important recruiting 
tool for our voluntary forces. And, as a ranking member of this 
committee, I want to make sure that we make good on that 
promise, that that promise is not hollow, that, indeed, people 
are able to use these benefits positive effect.
    There are three levels of, protections. And, seems to me 
that political appointees that are at will. Is that correct? In 
any one of the Federal departments, but there are appointees 
that are very much close to the top who can be fired ``at 
will.'' Is that true?
    Ms. Mitrano. Yes. My understanding is that the political 
appointees serve at the pleasure of the President, and they are 
subject to at-will employment.
    Mr. Takano. And in this quest for accountability for some 
of the egregious things that have happened within the 
Department, we saw that there was a firing--not a firing, of 
course, but Secretary Shinseki resigned his position. So, at 
the very top, there was an at-will sort of act. But, in this 
case, he wasn't fired, but circumstances came together that he 
actually left under those conditions. But there is a level 
below the political appointees. And, for the public, can you 
tell me what is that level generally known as?
    Ms. Mitrano. Well, below the political appointees are the 
Senior Executive Service employees.
    Mr. Takano. The SES.
    Ms. Mitrano. The SES, exactly. And the SES are covered by 
the legislation that was already passed, dealing with the 
expedited removal authority.
    And then the level below the SES are what we typically 
refer to as the GS ranks, the General Schedule ranks, of 
Federal civilian employees that are currently subject to the 
pending legislation.
    Mr. Takano. And H.R. 1994 extends--so we have legislation 
that affected the SES----
    Ms. Mitrano. Yes.
    Mr. Takano [continuing]. That was passed. And that was the 
statement that President Obama was addressing----
    Ms. Mitrano. Yes.
    Mr. Takano [continuing]. That we should be able to hold the 
SES, the senior management that are typically in the civil 
service----
    Ms. Mitrano. Yes.
    Mr. Takano. We streamlined the ability of, say, Secretary 
McDonald to be able to discipline and dismiss this level of 
employee.
    Ms. Mitrano. Yes. Yes, sir.
    Mr. Takano. And now we are talking about, in this new 
legislation that is pending before us, an extension of this 
streamlining or to make it much more easy to fire people that 
are below the SES.
    Ms. Mitrano. Yes. Exactly, sir.
    Mr. Takano. And that is the scope that we have that you 
hesitate to say is a good idea, that we may be subjecting 
people that are below the SES, the Senior Executive Service, to 
far less job protections than are necessary so that they may 
report bad actions to superiors.
    Ms. Mitrano. Yes. Absolutely, sir.
    Mr. Takano. Don't you also believe there is also a problem 
of politicization of the Department, that we, in effect, turn 
the entire department over to political patronage? That people 
who can be fired at will up and down the chain put us in the 
position of an administration coming in and firing everybody, 
and then there is a huge number of jobs that can be filled.
    Ms. Mitrano. Absolutely.
    Mr. Takano. If they can be fired at will, you know--I mean, 
this is something that existed, sort of, in the mid-19th 
century. And that is the whole reason why we had civil service 
reform acts, was to protect--so we need to find the sweet spot.
    Ms. Mitrano. Yes.
    Mr. Takano.
    Ms. Mitrano. Absolutely.
    Mr. Takano [continuing]. Enough protections. But we also 
want to prevent rent-seeking, as well.
    Ms. Mitrano. Yes.
    Mr. Takano. Mr. Chairman, my time is up. I yield back.
    Dr. Wenstrup. Miss Rice, you are recognized for 5 minutes.
    Ms. Rice. Thank you, Mr. Chairman.
    I would like to focus on two of the bills, 356 and 1994. 
They are opposed by the VA.
    And, Mr. Coy, I would like to ask you, as to Congressman 
Maloney's bill, H.R. 356, can you explain why an analysis of 
workload management challenges at the VA's regional offices is 
unnecessary?
    Mr. Coy. When we looked at this particular bill, we 
indicated that we supported, you know, the intent to improve 
and expand, but we think we are doing much of this. And so we 
are not necessarily opposed to the intent of this bill.
    We are looking at the entire VRE organization over the past 
several years, as has been noted by a few folks. We are 
streamlining a number of our business processes. We have 
developed new performance metrics, both on a regional level and 
on a national level. We developed a staffing model for each of 
our regional offices to ensure that we are putting assets where 
we need to do that.
    We put together a national training curriculum that 
includes things like TBI and PTSD, job-seeking skills, but also 
working with other key agencies like the Veterans Health 
Administration and their mental health services to ensure that 
we are serving those veterans with PTSD and TBI in the right 
way.
    We have worked with DOL. We just recently, only a short 
time ago, back in February, signed a memorandum of 
understanding that took a number of months for us to put 
together so we can work more collaboratively. We have worked 
with DoD on IDES and improved TAP programs. We have looked at 
our VetSuccess on Campus program. We have developed 
telecounseling.
    So when we look at the wide swath of the things that we are 
doing in VRE, we are not suggesting that we are doing it all 
and we have all the right answers; what we are suggesting is 
that we are going down a path that is doing all of those kinds 
of things.
    Ms. Rice. Why can't you just take a recommendation like 
this and say, you know what, maybe someone else has a good idea 
too? And maybe all of the things that you just mentioned have 
nothing to do with the outcome of an analysis of workload 
management challenges.
    Mr. Coy. And I think we have indicated that, you know, a 
study like this would be timely and somewhat costly. But, in 
fact, we are not necessarily opposed to the intent of wanting 
to take an inward look at all of our programs.
    Ms. Rice. Then why not just do it?
    Mr. Coy. Well, we think, when we look at the GAO studies, 
we have looked at all the previous studies, we are, in fact, 
following many of those recommendations that we are doing right 
now.
    Ms. Rice. I just was specifically asking about this one. I 
wasn't sure I understood the reason for the opposition.
    So, going to the VA's opposition to H.R. 1994, I guess I am 
going to ask you two things: What is the basis of your 
opposition to 1994? And can you tell this committee what the VA 
is doing in the absence of 1994 and what it would allow for to 
hold negligent employees accountable to their actions? Because 
we know that there is no accountability, at this point.
    Mr. Coy. I would like to, if I may, defer that to Ms. 
Mitrano, who is here to answer for VA's----
    Ms Rice. Oh, okay.
    Ms. Mitrano. Thank you for the opportunity.
    Our concerns with 1994 really drive around the due process 
deprivations for employees. I mean, the Supreme Court has held 
that a Federal job, or a job, is a property right, and the 
Fifth Amendment to the Constitution certainly says that you 
shall not be deprived of your property without due process of 
the law.
    This legislation actually would allow the Secretary to fire 
a Federal employee, remove them from their livelihood, with no 
notice, with no written reasons proffered, pretty much on the 
spot.
    That employee would then have 7 days to appeal to the Merit 
Systems Protection Board, but that would be a post-deprivation, 
it would be after they have already been fired they will have 
some right to appeal the action while they are unemployed. They 
have to file within 7 days, which is a fairly abbreviated 
timeframe that, you know, some employees might not be able to 
make.
    If they do get an appeal within 7 days, the Merit Systems 
Protection Board's judge is required to issue a decision within 
45 days, which is also a very abbreviated time for a judge to 
convene a hearing and gather enough information to have a 
hearing. If the 45 days is not met by the administrative judge 
for whatever reason beyond the employee's control, or beyond 
VA's control certainly, the VA's decision becomes final at that 
time.
    So, really, if taken in the worst-case scenario, an 
employee at the VA could be deprived of their livelihood on the 
spot and never have an opportunity to present reasons why that 
decision was mistaken or, perhaps, given some ability to defend 
him- or herself. So that is a significant concern.
    Ms. Rice. And I understand that. That makes sense. But you 
are putting that concern over the concern of whistleblowers, 
who are actually suffering probably more than someone who could 
be fired on the spot. And that really is at the heart of this, 
that retaliators are being protected more than whistleblowers 
are.
    And this is the optic issue that I have with the VA: that 
you don't seem to understand how bad what you just say sounds, 
that you defend bad actors over whistleblowers.
    Ms. Mitrano. Ma'am----
    Ms. Rice. My time is up. And I appreciate your answer. My 
point is the culture is not going to change----
    Ms. Mitrano. I understand.
    Ms. Rice [continuing]. And there will never be effective 
administration, holding people accountable, until people are 
actually held accountable.
    Thank you----
    Ms. Mitrano. No, I understand----
    Ms. Rice. Thank you so much.
    And I appreciate the time, Mr. Chairman.
    Dr. Wenstrup. Well, thank you.
    Ms. Mitrano, do you consider the right to appeal part of 
due process or not?
    Ms. Mitrano. Yes, it is part of due process. But it----
    Dr. Wenstrup. Okay. Well, you have been stating here today 
that people would have no due process if this bill became law. 
And I think that is a misleading statement, considering that 
people have the right to appeal and, if they win their appeal, 
they are given their back pay. So I am afraid that I think you 
have skewed things a little bit in the process. But we will end 
with that.
    And I just want to say that, if there is no further 
questions, the panel is now excused.
    And I do want to thank everyone here today for taking the 
time to come and share your views on these nine bills because 
your input and your testimonies are very important to the 
legislative process, and we appreciate your insight and 
feedback.
    I would also like to announce that the subcommittee will be 
holding a markup on some or all of these bills on June 25.
    I ask unanimous consent that the written statement of 
Paralyzed Veterans of America be placed in the hearing record.
    Without objection, so ordered.
    Dr. Wenstrup. Finally, I ask unanimous consent that all 
members have 5 legislative days to revise and extend their 
remarks and include extraneous material on any of the bills 
under consideration this afternoon.
    Without objection, so ordered.
    Dr. Wenstrup. This hearing is now adjourned.
    [Whereupon, at 4:14 p.m., the subcommittee was adjourned.]

                                APPENDIX
                                
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                                
                                
  

                                 [all]
</pre></body></html>
